     AUDIT OF THE FINANCIAL
       MANAGEMENT OF THE
UNITED STATES MARSHALS SERVICE’S
  OFFICE IN THE SUPERIOR COURT
  OF THE DISTRICT OF COLUMBIA

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 13-24
               June 2013
      AUDIT OF THE FINANCIAL MANAGEMENT OF THE
    UNITED STATES MARSHALS SERVICE’S OFFICE IN THE
     SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                             EXECUTIVE SUMMARY

        A U.S. Marshal serves each of the 94 federal judicial districts and is
charged with protecting court officers and buildings, apprehending fugitives,
and exercising custody of federal detainees, including providing for their
security and transportation to correctional facilities. To assist the District of
Columbia Court of Appeals and the Superior Court of the District of Columbia
in their mission to adjudicate criminal cases in Washington, D.C., Congress
created the United States Marshal Service’s Office in the Superior Court of
the District of Columbia (USMS SCDC or district), thereby making these
courts the only courts of local jurisdiction served by a U.S. Marshal. In
fulfilling its mission with these courts, the USMS SCDC serves in a role
analogous to that of a sheriff’s office for Washington, D.C. Accordingly –
and unlike any other district – the USMS SCDC executes Writs of Restitution
(evictions), produces for court appearances local detainees charged with
crimes ranging from traffic violations to homicides, and assists the
Metropolitan Police Department by producing arrestees for arraignment.

       Since March 2009, three USMS SCDC employees have been accused of
fraudulent financial activity and have been investigated by the Department
of Justice Office of the Inspector General (OIG). In May 2011, Sno Rush,
the former USMS Administrative Officer for the USMS SCDC, was sentenced
to 21 months in prison for theft of $104,000 in U.S. government funds. An
OIG investigation revealed that between April 2006 and February 2009 Rush
issued over $58,000 in false checks to pay her personal credit card bills,
misused a government fleet card to buy approximately $15,000 worth of fuel
and services for her personally owned vehicle, created a fictitious employee
in the USMS payroll system, and submitted falsified time records for that
employee that resulted in fraudulent payments totaling over $31,000. A
second OIG investigation that concluded in October 2012 found that 2 other
district employees fraudulently claimed more than 110 overtime hours and
received $4,591 in overtime pay. 1



       1
         The OIG presented the results of this investigation to the Public Integrity Section
of the Department of Justice Criminal Division, which declined to prosecute. The OIG
subsequently provided its Report of Investigation to the USMS for appropriate
administrative discipline.
      In light of the findings of these investigations, the OIG performed this
audit with the objective of assessing the internal controls over financial
management for the USMS SCDC. Our audit work at the district and USMS
Headquarters identified several problems in internal controls over salaries
and overtime, procurement, and accountable property.

       From October 2008 through September 2011, USMS SCDC employees
received over $6 million in compensation for nearly 160,000 overtime hours.
Certain USMS employees can receive overtime compensation when they
work more than 8 hours per day. We identified several operational
employees who recorded over 1,000 hours of overtime each year and earned
more than $35,000 each in overtime. In particular, a subject of the
previously mentioned OIG investigation of fraudulent overtime recorded an
average of 1,673 overtime hours each year and earned more in overtime
($68,331) than in base pay ($62,050). According to USMS officials, the
district’s need to keep the cellblock operating during court times generated
most of the overtime.

       District supervisors who had overseen the cellblock told us that the
number of cellblock overtime shifts they had made available was based
primarily on their own judgment. We found that relying on the judgments of
supervisors could potentially result in either costly overstaffing on the
cellblock or understaffing that could risk the safety of those working and
being held in the cellblock. In January 2013, the district implemented a new
staffing plan intended in part to eliminate cellblock overtime shifts during
weekdays. Although district officials told us that this staffing plan is based
on updated metrics and district processes, the staffing plan does not address
the USMS SCDC’s continued reliance on cellblock employees working
overtime on Saturdays. As the Superior Court of the District of Columbia
regularly hears arraignments on Saturdays, we recommend that the USMS
develop a solution to reduce the cellblock’s continued reliance on overtime
during Saturdays. An adequate solution, once implemented, should alleviate
all unnecessary overtime shifts while also ensuring the security of the
cellblock.

      We also assessed the SCDC’s financial oversight of “law enforcement
availability pay” (LEAP), which is additional remuneration provided to USMS
Criminal Investigator-Deputy U.S. Marshals (Criminal Investigators) equal to
25 percent of their base pay in exchange for being available for work an
average of 2 hours of unscheduled duty per workday. Although Criminal
Investigators are not required to actually work these unscheduled duty
hours, Department of Justice (DOJ) guidelines require their supervisors to
ensure, to the extent feasible, that Criminal Investigators actually work a
“substantial majority” of these unscheduled duty hours instead of just being
available to work.

      We therefore assessed 1 year of timesheets for 6 sampled employees
to determine whether USMS SCDC Criminal Investigators appeared to be
working the substantial majority of their unscheduled duty hours. The 6
employees reported working 1,598 unscheduled duty hours. Applying the
required average of 2 hours of unscheduled duty hours per regular workday
to the number of hours reported worked, the employees were presumably
available, but not working, for 985 hours of unscheduled duty. Our sample
included one Criminal Investigator who reported working just 7 hours of
unscheduled duty in a year when he received over $26,000 in LEAP. In
addition, we found that USMS Directives require Criminal Investigators to
record unscheduled duty worked, but that they do not require Criminal
Investigators to record the time that they were available but not working,
thus making it significantly more difficult for the USMS to identify and take
corrective action with respect to Criminal Investigators who are not working
a substantial majority of their unscheduled duty hours. Based on these
results, we believe USMS SCDC managers could do more to ensure that
Criminal Investigators worked or reported working a substantial majority of
unscheduled duty hours as required by DOJ.

       Our audit also determined that the district needs to strengthen internal
controls over both fleet and purchase cards. The district spent an average of
over $200,000 on fleet card purchases and an average of $120,000 on
purchase card transactions each year during our review period. With regard
to fleet cards, our audit found that the district has not maintained accurate
and complete records of employee fleet card use. Because the USMS
assigns fleet cards to vehicles rather than to employees, the district is
unable in many instances to ascertain which employee incurred a specific
fleet card charge. Moreover, district employees have not consistently
submitted documents such as receipts and vehicle logs to support their
monthly fleet card charges. Our sample of 1,222 fleet card transactions with
a value of $65,157 found that 949 transactions totaling $51,648 (79 percent
of sample value) lacked documentation necessary to support the
transactions. This indicates that the district’s monthly review of fleet card
transactions – in which a single supervisor is responsible for reviewing up to
500 fleet card charges each month – is ineffective at ensuring that all
transactions are fully supported and properly documented. In view of these
weaknesses, we believe that there is a high risk that employees can use
fleet cards inappropriately.

     The district is similarly not maintaining adequate support for its
purchase card transactions. Of the district’s 610 purchase card transactions
during our review period totaling over $360,000, we sampled
99 transactions collectively valued at more than $80,000. We found the
district could not provide all required supporting documents – including a
requisition form, vendor invoice, and receiving report – for 70 transactions
totaling nearly $61,000 (75 percent of the sample value).

      With respect to accountable property, in September 2010, the
USMS SCDC conducted its first “wall-to-wall” property inventory since a
2007 inventory that identified 245 district assets worth almost $1 million
that were lost or stolen. 2 The 2010 inventory found only 11 missing items
with a total value of almost $50,000, including 7 transceiver radios that cost
the district $5,000 each. We reviewed the steps district personnel took to
perform the inventory, and while we found the district’s inventory
procedures to be sufficient, we identified various internal controls that the
USMS should implement to improve the efficiency and effectiveness of its
inventory process.

       We also found that the USMS does not have policies adequate to
ensure that stolen USMS weapons remain listed as stolen in the National
Crime Information Center (NCIC) online database, which serves as a
national clearinghouse for information regarding criminal activity. During
our audit period, district employees reported stolen two USMS-owned
weapons: an AR-15 semi-automatic rifle and a shotgun. Both weapons
were stolen on May 16, 2009, from the trunk of a USMS vehicle that was
parked outside a residence. We found that the investigating local law
enforcement agency ensured that the theft of both weapons was listed in the
NCIC and the weapons were later reported to be recovered. However, by
the time the AR-15 rifle was recovered in February 2013 at the home of an
acquaintance of a suspect in an armed robbery, its listing had been removed
from the NCIC’s active database. While we could not determine why the
listing had been removed, an NCIC official told us that the listing was most
likely removed because the NCIC had not received the requested
confirmation from the local law enforcement agency that the weapon was
still missing. We have therefore recommended that the USMS develop a
policy sufficient to ensure that all stolen USMS weapons remain listed in the
NCIC until they are recovered.

      Our report identifies over $275,000 in total unsupported costs
associated with district-level salaries, fleet cards, and purchase cards, and
concludes that the district needs to improve how it accounts for salaries and

      2
         The USMS defines accountable property as nonexpendable personal property that
costs $1,000 or more and has a useful life of at least 1 year.
LEAP, documents purchases, and ensures that lost or stolen firearms remain
active in the NCIC until recovered. To help improve the USMS’s procedures
and controls over its financial management of USMS SCDC, we make
18 recommendations, including: (1) enhancing management tracking of
Criminal Investigator’s unscheduled duty time, (2) improving the tracking
and accountability of fleet card use, (3) ensuring that required support for
purchase card transactions is approved and maintained, and (4) updating
the inventory sheet to allow property teams to annotate the location or
individual holding the property.
      AUDIT OF THE FINANCIAL MANAGEMENT OF THE
    UNITED STATES MARSHALS SERVICE’S OFFICE IN THE
     SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                                 TABLE OF CONTENTS

INTRODUCTION .................................................................................1

Theft of Funds by Administrative Officer .................................................. 3
Office of the Inspector General Audit Approach ........................................ 4

FINDINGS AND RECOMMENDATIONS.................................................6

FINDING I: SALARIES AND OVERTIME .............................................6

Operational Reliance on Cellblock Overtime ............................................. 8
Incomplete and Missing Overtime Records ............................................. 10
Incomplete and Missing Law Enforcement Availability Pay (LEAP) Records . 12
Recommendations .............................................................................. 15

FINDING II: PROCUREMENT ...........................................................16

Fleet Cards ....................................................................................... 17
   Incomplete Fleet Card Dispatch Records ............................................ 19
   Unsupported Fleet Card Transactions ................................................ 20
   Review Process for Fleet Card Transactions ........................................ 22
   Premium Fuel Purchases .................................................................. 23
   Fleet Card Accounts Associated with Disposed Vehicles........................ 24
Purchase Cards .................................................................................. 25
   Improper and Incomplete Requisitions .............................................. 26
   Unsupported Purchase Card Transactions .......................................... 27
   Purchase Card Reconciliation ............................................................ 29
District Security Officer Purchase Orders ............................................... 29
Recommendations .............................................................................. 30

FINDING III: ACCOUNTABLE PROPERTY .........................................32

Property Acquisitions .......................................................................... 33
Physical Inventories ............................................................................ 35
Tracking Lost or Stolen Firearms .......................................................... 36
Property Disposals .............................................................................. 37
Recommendations .............................................................................. 38
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......39

SCHEDULE OF DOLLAR-RELATED FINDINGS ....................................40

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................41

APPENDIX II: USMS SCDC OPERATIONAL SECTIONS ......................45

APPENDIX III: TOP 20 USMS SCDC EMPLOYEES BY OVERTIME
  REPORTED WORKED ...................................................................46

APPENDIX IV: THE UNITED STATES MARSHALS SERVICE’S
  RESPONSE TO THE DRAFT AUDIT REPORT ..................................47

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .......53
                                 INTRODUCTION

       A U.S. Marshal serves each of the 94 federal judicial districts and is
charged with protecting court officers and buildings, apprehending fugitives,
and exercising custody of federal detainees, including providing for their
security and transportation to correctional facilities. To assist the District of
Columbia Court of Appeals and the Superior Court of the District of Columbia
in their mission to adjudicate criminal cases in Washington, D.C., Congress
created the United States Marshal Service’s Office in the Superior Court of
the District of Columbia (USMS SCDC or district), thereby making them the
only courts of local jurisdiction served by a U.S. Marshal. In fulfilling its
mission with these courts, the USMS SCDC serves in a role analogous to that
of a sheriff’s office for Washington, D.C. Accordingly – and unlike any other
district – the USMS SCDC executes Writs of Restitution (evictions), produces
for court appearances local detainees charged with crimes ranging from
traffic violations to homicides, and assists the Metropolitan Police
Department by producing arrestees for arraignment.

      According to payroll data, an average of 277 employees and
contractors worked at the USMS SCDC from fiscal years (FY) 2009 to 2011,
thus making it one of the largest USMS districts by total number of
personnel. 3 Exhibit 1 details the types of USMS employees who worked at
the district during this period and the functions they performed.




       3
          The reported average includes employees and contractors that may not have
worked full-time or throughout an entire year. According to USMS statistics, an average of
49 employees and contractors are assigned to each district. The only other district during
this period with a similar number of employees and contractors as the USMS SCDC is the
USMS Southern District of Texas (260 employees and contractors). As of March 2013, the
USMS SCDC reported having 186 full-time employees and 30 contractors.
     EXHIBIT 1: COMPOSITION OF THE USMS SCDC WORKFORCE
                  (FISCAL YEARS 2009 TO 2011)

                                                                         Average
                                                                         Number
                                                                      of Employees
                Type of Employee or Contractor                       and Contractors
  Criminal Investigator-Deputy U.S. Marshals
  (Criminal Investigators). Law enforcement officers
                                                                                    102
  who plan, conduct, or manage investigations related to
  suspected criminal violations of federal laws.
  Deputy U.S. Marshals. Law enforcement officers whose
  responsibilities include providing for the physical security
  of judicial officials, transporting and securing prisoners,                           90
  and supporting criminal investigations and the
  apprehension of fugitives.
  District Security Officers (Contract Guards). Personal
  services contract guards whose duties include securing                                47
  and processing prisoners in the cellblock.
  Detention Enforcement Officers. USMS employees
  whose main function is to secure and process prisoners in
                                                                                        17
  the cellblock. They do not have arrest power once shift
  ends and cannot take firearms home.
  Administrative Positions. Comprised of various
  administrative USMS employees, including 15 employees
  working under an Administrative Officer and 6 other                                   21
  Accounting Technicians, Budget Analysts, or Clerks
  assigned to other district units.
                                                           TOTAL                    277
  Source: USMS

       During the audit period, the USMS SCDC was divided into 10 different
operational squads, each supervised by a Deputy U.S. Marshal or an
equivalent. 4 About 15 full-time, non-law enforcement employees worked
under an Administrative Officer who reports to the Chief Deputy U.S.
Marshal and is responsible for the administrative management of the
district’s finances. The administrative staff budgeted and approved financial
transactions, verified employee time and attendance records, and allocated
and tracked accountable property, including vehicles and firearms.

      According to USMS officials, the workload of the USMS SCDC is not
comparable to the workloads of other USMS districts, specifically in terms of
the number of courtrooms secured, detainees handled, and operating days

      4
          Appendix II presents a description of the 10 USMS SCDC district operational
squads.
and hours of the courthouse. The SCDC itself has up to 130 judges and can
have over 50 courtrooms hearing cases at one time. On average, the
district handles between 250 and 400 detainees daily, which the USMS
states is one of the largest average daily number of detainees handled by
any USMS district. In addition, while most federal courts are generally open
only during regular business hours on weekdays, the SCDC hears cases on
Saturdays and federal holidays, and arraignments can be heard as late as
10 p.m.

      Between May 2008 and November 2011, the district did not have a
presidentially appointed, Senate confirmed U.S. Marshal, and instead was
led by acting U.S. Marshals appointed by the USMS Director. In
November 2011, the Senate confirmed Michael Hughes as the U.S. Marshal
for the USMS SCDC.

Theft of Funds by Administrative Officer

      The USMS SCDC’s former lead Administrative Officer, Sno Rush,
pleaded guilty to stealing $104,000 in USMS funds and was sentenced to 21
months in prison in May 2011. The plea followed the results of a
Department of Justice Office of the Inspector General (OIG) investigation
that found Rush took advantage of a persistently weak internal control
environment at the USMS SCDC and criminally misused her authority to
safeguard funds to commit several different fraudulent schemes.
Specifically, between April 2006 and February 2009, Rush issued over
$58,000 in false checks to pay her personal credit card bills, misused a
government fleet card to buy approximately $15,000 worth of fuel and
services for her personally owned vehicle, created a fictitious employee in
the USMS payroll system, and submitted falsified time records for that
employee that resulted in fraudulent payments totaling over $31,000.

       After the USMS learned of the results of the OIG investigation, it
worked to identify and address specific internal control deficiencies at the
district. A May 2009 internal USMS review of district-level operations cited
163 separate violations of USMS directives. Deficiencies included incomplete
timekeeping records, unapproved overtime requests, and missing firearm
and vehicle inventory records. The review also noted the results of a 2007
district inventory that found 245 property items valued at almost $1 million
were stolen or missing. Subsequent to this internal review, the USMS
dispatched a high-level official from its headquarters to the district to
establish standard policies and processes to help its administrative office
address financial management deficiencies.
      In less than 2 years after Sno Rush’s resignation, about half of the
administrative employees on board during her tenure resigned or retired
from the USMS. The district hired a new, full-time Administrative Officer in
August 2009.

Office of the Inspector General Audit Approach

      In light of the USMS’s unique role in supporting the SCDC and the
weaknesses in district-level controls over financial recordkeeping, the
objective of this audit was to assess the internal controls over financial
management for the USMS SCDC. To accomplish the audit objective, we
reviewed time and attendance and property records from FYs 2009 to 2011
and procurement activity from January 2009 to September 2011. 5 We
conducted over 60 interviews involving over 40 USMS officials and
employees at USMS SCDC offices in Washington, D.C., and USMS
Headquarters in Arlington, Virginia. We also discussed with OIG
investigators the results of prior cases involving the misuse of funds by
USMS employees. 6

       To understand the unique challenges facing the USMS SCDC, we met
with the current U.S. Marshal, the prior U.S. Marshal and an official who
served as one of the district’s acting U.S. Marshals. To assess the district’s
internal control environment over financial management, we reviewed
policies and procedures in place at the district and observed how the

       5
         We chose January 2009 as the start of our procurement review because Sno Rush
was no longer employed at the USMS SCDC and the USMS had begun using a new purchase
card system called “SmartPay 2.” We chose September 2011 as the end of the audit period
so that our audit would include the first complete federal fiscal year in which the
administrative staff worked under the new policies and processes established by the visiting
USMS Headquarters official.
       6
          In addition to the Sno Rush investigation, we considered the results of two other
OIG investigations involving three other USMS employees working in Washington, D.C. One
investigation found that Peter F. Rouse, a Deputy U.S. Marshal in the U.S. District Court for
Washington, D.C. misappropriated a USMS fleet credit card and stole over $5,000 worth of
fuel. In October 2011, Rouse pled guilty to stealing government property and resigned from
the USMS. On January 17, 2012, Rouse was sentenced to 2 years of probation and ordered
to pay back the value of the stolen fuel.

       The second investigation, concluded in October 2012, found SCDC Deputy
U.S. Marshals were paid $4,591 in overtime pay for falsely claiming over 110 hours of
overtime over a 100-day period between September 25, 2009, and January 2, 2010. The
OIG presented the results of this investigation to the Public Integrity Section of the
Department of Justice Criminal Division, which declined to prosecute. The OIG
subsequently provided its Report of Investigation to the USMS for appropriate
administrative discipline.
administrative staff performed specific activities such as conducting
inventories, processing timesheets, approving purchases, and reviewing
purchase and fleet card transactions. Appendix I contains a detailed
description of our audit objective, scope, and methodology.
                 FINDINGS AND RECOMMENDATIONS

I.    SALARIES AND OVERTIME

      The USMS SCDC needs to improve internal controls over time
      and attendance, reduce its use of overtime in the cellblock, and
      ensure that its Criminal Investigators are working and reporting
      a substantial majority of unscheduled duty hours needed to meet
      the average of 2 hours per regular workday required for Law
      Enforcement Availability Pay (LEAP). Although the district’s
      overtime pay decreased by nearly half during our audit period,
      from $2.7 million in FY 2009 to about $1.5 million in FY 2011,
      the cellblock continued to account for over half of the overtime
      because the district relied on overtime shifts to staff the cellblock
      on weekdays and on Saturdays. Supervisors told us they
      primarily relied on their experience and intuition to determine
      the number of weekday overtime shifts in the cellblock. We
      found this could potentially result in either overstaffing on the
      cellblock or understaffing that could risk the safety of those
      working and being held in the cellblock. In January 2013, the
      USMS implemented a new staffing plan that includes an
      additional weekday cellblock shift; however, the plan does not
      address the district’s continued use of overtime on Saturdays.
      The district further did not maintain complete records to show
      that: (1) overtime requests were necessary, approved, and
      actually worked; and (2) supervisors ensured that Criminal
      Investigators worked a substantial majority of unscheduled duty
      hours needed to meet the average of 2 hours per regular
      workday required for LEAP.

     Certain USMS employees can receive overtime pay generally equal to
150 percent of their normal hourly salary for any hours worked beyond their
normal tour of duty of 40 hours per week. 7 During the 3 years from
October 2008 to September 2011, USMS SCDC employees worked
approximately 1.5 million hours – 10 percent of which were attributable to

      7
         Overtime pay is payment to employees for officially ordered or approved work
exceeding 8 hours per day or 40 hours per week. GS-10 step 1 and lower-grade employees
receive overtime pay calculated at 150 percent of their basic pay rate. Higher-grade
employees receive overtime pay calculated at the greater of: (1) the hourly rate of basic
pay for GS-10, step 1, multiplied by 1.5, or (2) the employee's hourly rate of basic pay.
The overtime pay provisions of the Fair Labor Standards Act generally do not apply to
Criminal Investigator-Deputy U.S. Marshals receiving availability pay. 5 C.F.R. 550.186(c)
(2013).
overtime – and received over $6 million in overtime pay. Considering that
the district averaged 230 full-time employees during this time, each
employee on average worked 228 hours of overtime and received almost
$9,000 in overtime pay each year.

       However, these averages do not convey an accurate picture of what
some individual district employees actually received in overtime pay. We
identified several operational employees who each logged over 1,000 hours
of overtime and earned more than $35,000 in overtime each year. Five
employees alone received a total of nearly $679,000 in overtime pay in the
three years we audited, representing more than 11 percent of the over $6
million paid in overtime to all district employees. 8 One employee, who was a
subject of the previously mentioned OIG investigation of fraudulent
overtime, recorded an average of 1,673 overtime hours each year and
earned more in overtime ($68,331) than in base salary ($62,050). To work
this amount of overtime in addition to a normal full-time schedule, this
employee would have had to work 12-hour days every weekday and
Saturday over this 3-year period. Some USMS district employees charged
up to 80 overtime hours over a 2-week pay period, incurring just as many
overtime hours as regular hours.

      These individual employees notwithstanding, the district’s overall
overtime costs decreased 46 percent from FYs 2009 to 2011, as shown in
Exhibit 2.

                      EXHIBIT 2: USMS SCDC OVERTIME
                        (FISCAL YEARS 2009 TO 2011)

                                         Overtime            Total Overtime
                 Fiscal Year          Charged (hours)           Cost ($)
                    2009                       71,384              2,697,580
                    2010                       49,027              1,920,314
                    2011                       36,874              1,456,187
                          TOTAL         157,285 hours            $6,074,081
           Source: OIG analysis of USMS data

       District officials cited four main reasons for this decrease. First,
beginning in FY 2010, the district’s managers and administrative team began
monitoring each squad’s overtime use on a biweekly basis. Second, the
district created a new court support squad shift with staggered start times
for employees assigned to courtrooms that were open later. Third, night

       8
         Appendix III provides a list of the top 20 USMS SCDC earners of overtime in fiscal
years 2009 to 2011.
renovations have necessitated that the courthouse close earlier, limiting the
number of hearings that occur later in the evening. Fourth, in FY 2010, the
USMS assigned 26 additional full-time operational employees to the district,
which reduced the need for employees to incur regular overtime hours.

Operational Reliance on Cellblock Overtime

      The district maintains a cellblock staffed by a squad of Deputy U.S.
Marshals, Detention Enforcement Officers, and contractors to receive and
secure detainees. Despite the decrease in total overtime hours and pay
between FYs 2009 and 2011, we found that the district continued to use
employees working in an overtime capacity to maintain cellblock operations.
This practice resulted in cellblock duties accounting for over half of all the
overtime incurred by the district between FYs 2009 and 2011. In FY 2011
alone, 14 USMS employees each received over $20,000 in overtime pay
largely accrued as a result of working extra shifts in the cellblock.

       District supervisors told us that although the cellblock squad operated
in multiple shifts, overtime was necessary to cover the times that the
courtroom hears arraignments and to secure hundreds of local detainees
each day in the cellblock. 9 Each workday has an A.M. and a P.M. cellblock
shift. Supervisors recruited an average of 10 to 14 employees to work A.M.
overtime and usually recruit 6 to 8 employees to work P.M. overtime.
Saturdays and holidays averaged 22 employees working overtime shifts.

      Supervisors announced cellblock overtime opportunities via e-mail
about 1 week in advance. Based on the responses received, supervisors
assigned overtime shifts to those who volunteer. We found that A.M.
overtime shifts in the cellblock were almost guaranteed each weekday, while
P.M. overtime shift opportunities were based on whether the cellblock
supervisor believed additional employees were needed to work overtime due
to the number of detainees that were being held in the cellblock until the
courts adjourn.




       9
          The USMS cellblock opens at 6 a.m. on weekdays and 8 a.m. on Saturdays and
holidays. The arraignment court operates 6 days a week (Monday through Saturday),
including holidays, and remains open until all new detainees are arraigned, which can be as
late as 10 p.m. The district developed four overtime shifts to cover the detainees being
seen by the courts: (1) A.M. overtime (6 a.m. to 8:30 a.m. on weekdays); (2) P.M.
overtime (either after 5 p.m. or 7:30 p.m. depending on schedules); (3) Saturday overtime;
and (4) holiday overtime (during federal holidays).
       However, supervisors who are responsible for assigning overtime shifts
told us that they largely relied on their work experience and familiarity with
cellblock operations to gauge cellblock overtime needs. 10 Furthermore,
supervisors are not required to document their overtime need or otherwise
justify the number of overtime shifts available. As a result, supervisors use
different methods to assign overtime, and employees have accused
supervisors in at least two instances of providing preferential treatment to
some employees in comparison to others. 11

       During our audit period, the district assigned only 14 detention officers
or guards to work regular A.M. and P.M. cellblock shifts despite regularly
recruiting additional employees to work overtime to secure the cellblock.
USMS SCDC officials stated that they based the number of detention officers
and guards working regular cellblock shifts on historical data, funding
availability, and number of active employees. Nevertheless, several USMS
officials confirmed that cellblock work was viewed as the least desirable
assignment at the district, and one supervisor told us that he believed this
perception has led to Deputy U.S. Marshals being over-assigned to other
squads, such as warrants and evictions, in lieu of fully staffing the cellblock
squad with regular employees.

       In January 2013, the district implemented a new staffing plan that
included an additional weekday cellblock shift. The Marshal told us that
before implementing the plan, he and his management team tracked the
ratio of detainees to employees and guards throughout the day to determine
when the cellblock was in need of additional resources. Based on this
assessment, the district added a new regular cellblock shift to eliminate the
need for weekday A.M. and P.M. overtime. The Marshal also told us he
anticipates that the new staffing plan will reduce future cellblock overtime
costs by up to 50 percent. The Marshal further said that the district
continues to evaluate methods to reduce the cellblock overtime hours while
maintaining the safety and security of the cellblock. As the Superior Court
of the District of Columbia regularly hears arraignments on Saturdays and
the USMS SCDC needs to staff the cellblock when the court hears
arraignments, we recommend that the USMS develop a solution to reduce
      10
           We note, however, that USMS SCDC policy dictates that a minimum of two USMS
employees must be present when cells are unlocked, when detainees are moved within the
cellblock, or whenever an employee handles detainees of the opposite sex.
      11
          Because the USMS maintained no records justifying its cellblock overtime needs,
we could not ascertain whether employees actually received preferential treatment. We did,
however, note disparities between employees with respect to overtime hours and pay,
including one employee who worked more than 5,000 overtime hours and received over
$200,000 in overtime pay between FYs 2009 and 2011.
the USMS SCDC’s reliance on cellblock overtime for Saturdays. Such a
solution may include staggering the start of the scheduled workweek of
some guards so that Saturday would be designated a regular workday, and
should ensure that overtime is not used for Criminal Investigators who
receive Law Enforcement Availability Pay (LEAP) when the hours worked
might qualify as unscheduled duty, such as working past scheduled hours
when a court session runs late.

       We remain concerned that the district has not uniformly assessed how
many employees and contractors the USMS SCDC cellblock requires at
different times to both ensure the security of the cellblock and minimize the
instances when the cellblock may be overstaffed or understaffed. We
therefore recommend that the USMS continue to assess cellblock operations
under the January 2013 staffing plan to determine the ideal number of staff
needed in the USMS SCDC cellblock, and if necessary, update the district
staffing plan to meet that number.

Incomplete and Missing Overtime Records

      During the audit, the OIG conducted a separate investigation into
allegations of overtime fraud and abuse by two USMS SCDC employees. As
described above, the investigation identified several instances when
employees were not in the cellblock but were still claiming cellblock
overtime. The investigation determined that these two employees
fraudulently claimed a total of over 110 hours of overtime and received
$4,591 in overtime pay.

      Based on the results of this investigation, coupled with the large
amount of overtime worked by some district employees during our audit
period, we examined the district’s internal controls over overtime
recordkeeping and approval. We judgmentally selected and requested from
the district a sample of 319 time and attendance records for employees who
recorded working overtime between FYs 2009 and 2011. The district could
not locate for our review 108 of the requested records, which constituted
approximately one-third of our selected sample. 12 We therefore reviewed
the remaining 211 sampled records that the district was able to locate.



       12
            Most of the missing records were from FY 2009. USMS SCDC administrative
officials stated that the district has been the subject of multiple investigations since that
time, and they noted that investigators internal and external to the USMS had removed
many documents from the district. The administrative officials believed this was the reason
the district was unable to provide several of the documents the OIG requested.
       The USMS requires its employees to request and receive written
supervisory approval for overtime in advance. During the audit period,
USMS SCDC employees used an official USMS overtime request form to
document this approval and to demonstrate that the requested overtime was
necessary and actually worked by the employee. In addition, when the
employee reported for overtime duty, the overtime supervisor was required
to initial the original request form next to where the employee reported the
actual number of hours worked for that shift. This annotation was intended
to demonstrate that the employee actually worked the requested overtime
shift. The USMS then required employees to attach the signed and verified
overtime request forms to their biweekly timesheet.

      We found that although employees generally attached overtime
requests to their biweekly timesheets, 129 overtime requests for
3,994 overtime hours ($144,831 in overtime pay) were not submitted and
approved prior to the employee actually working overtime. Moreover, in
68 instances when employees reported working 420 hours of overtime
($18,212 in estimated overtime pay), supervisors did not confirm on the
request form that the employee actually worked the overtime hours
recorded. We found that employees received payment for overtime
recorded on their timesheets even though overtime requests lacked proper
approval. Our review identified $163,043 in unsupported overtime
payments resulting from overtime hours that were not requested or
approved in accordance with USMS SCDC policies. We consequently
consider these payments to be questioned costs. 13

        In August 2011, the USMS began using an electronic time and
attendance system called WebTA. District officials told us that employees
using WebTA are required to complete sign-in sheets when they work in the
cellblock. Supervisors subsequently upload the sign-in sheets to a district
shared drive at the end of each pay period. Although supervisors can use
the sign-in sheet to verify the number of hours employees worked,
supervisors are not required to do so when they review and approve
biweekly timesheets. In addition, our testing revealed that supervisors are
still retroactively approving overtime requests in WebTA. Out of the eight
sampled overtime requests in WebTA, none were approved by supervisors
prior to the employee working overtime.



       13
          Questioned costs are expenditures that are not supported by adequate
documentation at the time of the audit, or otherwise do not comply with legal, regulatory or
contractual requirements.
       District managers stated that they schedule Saturday and holiday
overtime a month in advance and that supervisors have been retroactively
approving overtime because employees were generally not submitting
written requests prior to working overtime shifts. However, a stricter
supervisory tracking and approval process is necessary in light of: (1) the
instances of district-level overtime fraud identified by the OIG; (2) the
number of overtime shifts worked by USMS SCDC employees; and (3) the
lack of records necessary to show that over $160,000 in sampled overtime
was necessary, approved, and actually worked. We therefore recommend
that the USMS remedy $163,043 in unsupported questioned costs by
seeking, as appropriate, recovery of funds it determines were improperly
distributed and updating its WebTA policies and procedures to require that
district employees submit overtime requests before working overtime shifts.
Such policies and procedures should: (1) ensure that district supervisors
review cellblock sign-in sheets to verify the number of overtime hours
employees actually worked and (2) provide guidance to employees regarding
the proper approval of overtime when prior approval is not possible due to
exceptional circumstances.

Incomplete and Missing Law Enforcement Availability Pay (LEAP)
Records

       In addition to the 40 hours in the basic workweek and any scheduled
overtime hours, Criminal Investigator-Deputy U.S. Marshals (Criminal
Investigators) must be available to work an average of 2 hours of
unscheduled duty each regular workday on an annual basis, regardless of
the time of day. 14 To compensate Criminal Investigators for this availability,
the USMS pays its Criminal Investigators LEAP equal to 25 percent of their
base salary. In FY 2011, USMS SCDC Criminal Investigators received base
salaries ranging from approximately $62,700 to $110,000, and thus received
LEAP ranging from just under $16,000 to as much as $27,500. In total, the
USMS spent almost $1.6 million during FY 2011 on LEAP compensation for
USMS SCDC Criminal Investigators.



       14
           The term “regular workday” refers to each workday that the investigator worked
at least 4 hours. Regular workday hours do not include overtime hours, unscheduled duty
hours, time spent training or on travel status, approved leave, or excused leave with pay.
For example, if a Criminal Investigator takes 16 hours of annual leave over the course of
2 days during a regular 10-day pay period, the number of regular workdays for that pay
period decreases from 10 to 8 because the Criminal Investigator did not work at least
4 hours during 2 days of the pay period. 5 U.S.C. §5545a (2013) and 5 C.F.R. §550.183
(2013).
      Notably, there is no statutory or regulatory requirement that Criminal
Investigators actually work 2 additional hours each regular workday to
receive LEAP. Rather, according to 5 CFR § 550.182, Criminal Investigators
must either work or be “determined by the employing agency to be available
to work” the unscheduled duty hours. A Criminal Investigator may therefore
meet the LEAP availability requirement by being available to work but not
actually working the requisite unscheduled duty hours. However, a
Department of Justice (DOJ) policy separately requires that managers
ensure, to the extent feasible, that Criminal Investigators actually work a
substantial majority of these extra hours instead of just being available to
work. 15

       USMS directives also require that, by October 31 of each year,
Criminal Investigators certify in writing that they met the required daily
average of two unscheduled duty hours, including available and worked
hours, for the period since the last certification. If Criminal Investigators do
not meet the required daily average of 2 unscheduled duty hours since the
last certification, USMS policies state that the Criminal Investigators may be
decertified and no longer eligible to receive LEAP. 16

       Our audit found that Criminal Investigators at the district did not
certify that they met the 2-hours per day requirement in FYs 2009 and
2010, but nevertheless continued to earn LEAP. On October 1, 2011, district
Criminal Investigators began certifying that they met this requirement for
the prior FY 2011.

      Because the USMS SCDC Criminal Investigators did not certify that
they had met the LEAP average for two years of the audit period, we
reviewed district records from FY 2009 to 2011 to determine the extent to
which USMS SCDC managers ensured that Criminal Investigators actually
worked a substantial majority of unscheduled duty hours instead of just
being available for unscheduled duty. USMS Directives require that Criminal
Investigators record unscheduled duty worked, but they do not require
Criminal Investigators to record the time that they are available but not

       15
            DOJ Human Resources Order 1200.1 (August 1998).
       16
           The regulations governing LEAP state that a Criminal Investigator may be
decertified from receiving LEAP if he or she: (1) has failed to perform unscheduled duty as
assigned or reported or (2) is unable to perform unscheduled duty for an extended period of
time due to physical or health reasons. 5 C.F.R. §550.184(d) (2012). Cf. Smith v. Dep’t of
the Army, 2012 MSPB 24, paragraph 10 (2012) (finding that § 550.184(d) permits the
involuntary termination of LEAP “only for inability or unwillingness to perform the
unscheduled duty” (emphasis added)).
working. We therefore reviewed all available time and attendance records
for six judgmentally selected USMS SCDC Criminal Investigators and
identified the number of unscheduled duty hours each reported having
worked. 17 We also used the number of regular workdays reported in these
records as a basis for estimating the number of unscheduled duty hours
each Criminal Investigator would have needed to have been available but
not working to meet the minimum average number of hours for LEAP.

       Using this method, we determined that the six sampled Criminal
Investigators needed to work or be available to work an estimated total of
2,583 unscheduled duty hours, and that they had recorded working 1,598
unscheduled duty hours, leaving 985 hours (38 percent) of unscheduled
duty for which they were presumably available but not working. We also
found significant variation among the six tested Criminal Investigators.
Notably, one Criminal Investigator who would have needed to be available
for a total of 384 hours during one year reported working just 7 hours, or
less than 2 percent, of unscheduled duty. This Criminal Investigator
received over $26,000 in LEAP during the tested year.

      According to the USMS, in some instances, unscheduled duty hours
worked may not have been reported by Criminal Investigators. The USMS
stated that such may have been the case with regard to the Criminal
Investigator who reported working just 7 hours of unscheduled duty. Yet
maintaining accurate and complete records of hours worked is essential to
the appropriate management of LEAP. If Criminal Investigators are not
accurately reporting unscheduled duty hours worked, SCDC managers need
to correct this problem so they can ensure that Criminal Investigators
actually work a substantial majority of unscheduled duty hours as directed
by Department policy.

      In light of these results, we recommend that the USMS require district
managers track unscheduled duty time worked by Criminal Investigators in a
manner that: (1) provides them with regular snapshots of unscheduled duty
hours worked by each Criminal Investigator, and (2) identifies Criminal
Investigators who do not appear to be working a substantial majority of
unscheduled duty hours. An adequate tracking system should provide USMS
managers with reasonable assurances that any unscheduled duty time for


      17
         The district was not able to provide copies of all timesheets for all tested
employees. We therefore estimated the unscheduled duty hours worked during periods for
which timesheets were not provided using the ratio of regular workdays to total workdays
the employee had worked the rest of the year.
which Criminal Investigators claimed they were available but not working is
not also claimed as overtime.

        In addition, while not strictly required by Department policy, we
encourage the USMS to seek every opportunity to ensure that Criminal
Investigators work as many of their unscheduled duty hours as possible so
that the USMS receives the maximum benefit from its investment in LEAP.
We therefore further recommend that the USMS require that the district
implement corrective action to increase unscheduled duty hours worked by
Criminal Investigators who are not working a substantial majority of the
required average of unscheduled duty hours. A progressive range of
corrective actions should be available to managers in this effort, including
adjusting Criminal Investigator work schedules and precluding them from
soliciting overtime on non-regular workdays.

Recommendations

      We recommend that the USMS:

      1.    Develop a solution to reduce the USMS SCDC’s reliance on
            cellblock overtime for Saturdays.

      2.    Continue to assess cellblock operations under the January 2013
            staffing plan to establish the ideal number of staff needed in the
            USMS SCDC cellblock, and if necessary, update the district
            staffing plan to meet that number.

      3.    Remedy $163,043 in unsupported questioned costs by seeking,
            as appropriate, recovery of funds it determines were improperly
            distributed and updating its WebTA policies and procedures to
            require that district employees submit overtime requests before
            working overtime shifts.

      4.    Require district managers track unscheduled duty time worked
            by Criminal Investigators in a manner that: (1) provides them
            with regular snapshots of unscheduled duty hours worked by
            each Criminal Investigator, and (2) identifies Criminal
            Investigators who do not appear to be working a substantial
            majority of unscheduled duty hours.

      5.    Require that the USMS SCDC implement corrective action to
            increase unscheduled duty hours for Criminal Investigators who
            are not working a substantial majority of the required average of
            unscheduled duty hours.
II.   PROCUREMENT

      To mitigate the risk of improper transactions, the district needs
      to strengthen internal controls over fleet cards and purchase
      cards. Our audit found that the district could not support over
      $51,000 in fleet card transactions out of a sample of over
      $65,000. The district further could not provide full support for
      more than $60,000 out of approximately $80,000 purchase card
      transactions we sampled.

       USMS employees at the USMS SCDC can purchase products and
services through various procurement methods, depending on the purchase
price and the product or service. For example, employees can use credit
cards (either purchase or fleet cards) to make micro purchases that are less
than $3,000. For larger purchases, including contracted guard services, the
district uses purchase orders and other contracts.

       USMS financial records show that the district spent almost $6.8 million
for the period of January 1, 2009, to September 30, 2011, using four
different types of procurement methods, as shown in Exhibit 3.

                   EXHIBIT 3: USMS SCDC PROCUREMENT
                    (JANUARY 2009 TO SEPTEMBER 2011)

Procurement                                                                    Total
  Method                                 Description                            ($)
                   A commercial purchase charge card authorized for
                   use in making and paying for purchases for
Purchase Card      supplies or services.                                            360,771
                   A commercial fleet charge card authorized for the
                   purchase of fuel, maintenance, and repair of
Fleet Card         government-owned vehicles.                                       606,830
Blanket            A simplified acquisition method used to fill
Purchase           anticipated recurring needs for the same or similar
Agreement          supplies or services.                                       462,474*
                   An offer to buy supplies or services, including
                   personal services contracts between USMS and
                   district security officers, upon specified terms and
Purchase Order     conditions using simplified acquisition procedures.       5,344,933*
                                                                  TOTAL     $6,775,008
Source: USMS Procurement Records
* Figures for blanket purchase agreements and purchase orders are pro-rated using
  FY 2009 totals to reflect financial activity beginning January 2009.

     Of the $5.3 million spent on purchase orders, over $3.3 million
(63 percent) were for personal service contracts for district security officers.
       The OIG’s investigation of Sno Rush found that, as the Administrative
Officer, she took advantage of weak internal controls over three different
procurement methods – fleet cards, purchase cards, and purchase orders for
guard contracts – to misuse and steal USMS funds. 18 Based on the results of
the investigation, we believe that these three procurement methods remain
most at risk of district-level procurement fraud and abuse. For guard
contracts, the same district official that approves contract guard agreements
is also responsible for monitoring contract guard time and attendance. For
fleet and purchase cards, because individual employees are responsible for
their use, there exists an inherent risk that individual employees could
misuse their cards to make improper purchases. 19 During our period of
review, the district spent approximately $4.3 million on these three
procurement methods, constituting nearly 63 percent of the nearly
$6.8 million it spent in total.

      The following sections discuss the results of our testing regarding each
of these three potentially at-risk procurement methods.

Fleet Cards

       The USMS SCDC maintains a fleet of about 115 government vehicles
used for investigative and law enforcement purposes. Employees use credit
cards, or fleet cards, to purchase fuel and related services. Although
individual employees assigned a vehicle use the fleet cards to make these
purchases, the USMS assigns each fleet card to a vehicle, not to a person,
and each fleet card may only be used to purchase fuel or services to the
specific vehicle to which it is assigned. The fleet cards have been
programmed to prevent employees from using them to buy goods or
services from different categories of merchants, such as antique shops,
casinos, jewelry stores, and pawn shops.

      From January 1, 2009, to September 30, 2011, district employees
used fleet cards to purchase almost $561,000 worth of fuel, which accounted
for more than 90 percent of all fleet card purchases totaling almost
       18
          The investigation did not find that Rush specifically misused or committed fraud
with regard to blanket purchase agreements.
       19
          Office of Management and Budget (OMB) Circular A-123, Appendix B (2009)
defines improper transactions as purchases of goods and services intended for government
use but not permitted by law or regulation. Under this definition, improper purchases
include: (1) fraudulent purchases for goods or services that are unauthorized or acquired
for or converted to personal use and (2) abusive purchases that, while authorized, are
excessive, of questionable government need, or both.
$607,000. Employees also spent over $10,000 on car washes and over
$35,000 on other types of vehicle-related transactions, such as oil changes
and emergency towing. Exhibit 4 details this fleet card spending by fiscal
year.

            EXHIBIT 4: USMS SCDC FLEET CARD PURCHASES
                (JANUARY 2009 TO SEPTEMBER 2011)

 Fiscal       Fuel         Car Washes               Other                TOTAL
  Year  Count   Cost ($) Count Cost ($)         Count Cost ($)     Count    Cost($)
 2009*   3,890   126,749   238     3,724          335   16,342      4,463     146,815
  2010   4,765   193,197   203     3,015          322   12,101      5,290     208,313
  2011   4,772   240,987   235     3,634          194     7,081     5,201     251,702
 TOTAL 13,427 $560,933     676 $10,373            851 $35,524      14,954   $606,830
 Source: USMS
 * FY 2009 data encompasses transactions incurred from January 2009 to September
   2009. Prior to January 2009, a different credit card program administered the USMS’s
   fleet cards.

       The USMS pays individual fleet card transactions monthly using a
centrally billed account. Under this process, the USMS pays all district fleet
card transactions incurred by its employees, including those that may have
been improper. As such, district management is responsible for establishing
controls over fleet cards to prevent unauthorized charges. However, the
OIG’s Sno Rush investigation found that district-level internal controls over
fleet cards were so weak that Rush was repeatedly able to misuse a fleet
card to buy approximately $15,000 worth of fuel and services for her
privately owned vehicles. The investigation further found that Rush was able
to misuse this card even though she was not assigned or otherwise
permitted to use a government vehicle.

       To assess the district’s controls over fleet cards in the aftermath of
Sno Rush, we reviewed the nearly 15,000 fleet card transactions listed in
Exhibit 4 totaling $606,830. We examined fleet card statements and vehicle
records, and we analyzed the district’s oversight of fleet operations. We
found that the district has not established an effective internal control
environment to monitor employee fleet card use because it does
not: (1) maintain complete assignment and dispatch records that show
employee fleet card use; (2) ensure that employees submit documentation
for vehicle use and fleet card charges; (3) periodically review fleet card
activity to ensure that employees use fleet cards appropriately, specifically
with regard to premium fuel; and (4) ensure that fleet cards associated with
disposed vehicles are closed during the disposition process. The following
sections detail the results of our analysis of each of these areas.
Incomplete Fleet Card Dispatch Records

      Following the Sno Rush investigation, the district transferred the
responsibility for maintaining unassigned fleet cards from the Administrative
Officer to the Property Officer. The Property Officer told us that the district
did not have a formal method to track which employee had custody of a
specific fleet card until June 2010, when the Property Officer created a
“dispatch log” to track which specific employee had used a fleet card. Each
time an employee receives or returns a fleet card, the employee is supposed
to record an entry in the dispatch log to annotate the date the card was
received or returned and the vehicle’s tag and identification numbers, which
are inscribed on the fleet card.

       The Property Officer maintained about 115 dispatch logs – one for
each vehicle – that collectively had 434 entries by 133 different employees.
We reviewed a sample of 28 fleet card accounts to determine whether
charges incurred after the implementation of the dispatch logs could be
traced to a specific employee. These 28 accounts had nearly
1,900 transactions that totaled $87,715. By comparing actual charges
against dispatch log entries, we found that many dispatch logs were
incomplete. Some employees had not signed and dated the dispatch log for
their assigned vehicles, and several cards had transactions for months where
there were no dispatch log entries. We also noted 26 instances where
employees recorded an entry for receiving a fleet card but never recorded an
entry for returning the fleet card, or vice versa. In some instances,
employees listed dates that did not appear to make sense. For example,
one employee dated a “sign out” of a card on July 22, 2009, which was
almost one full year before the property officer began using dispatch logs.

       Because the dispatch logs were incomplete, we could not always
determine which employee used the fleet cards to make charges. Of our
sample of 28 cards with approximately 2,000 transactions, we could not
trace 272 transactions totaling $11,005 (13 percent of sample value) to
specific employees. Moreover, eight transactions totaling $678 were
incurred even though the dispatch logs showed that the fleet card had not
been signed out by an employee during the times the charges were made.
For example, a fleet card assigned to a 2003 Chevrolet Suburban was used
by the same employee from March 29, 2011, to April 19, 2011, to make a
series of fuel purchases in Fredericksburg, Virginia. On April 19, 2011, the
employee returned the fleet card to the Property Officer. This was the last
entry recorded in the dispatch log for that fleet card. However, just a few
days later, when the dispatch log indicated the vehicle and associated fleet
card were not in use, the fleet card was used to purchase more than $300 of
fuel (79 gallons) over a 6-day period. Because the dispatch log was not
complete, we could not determine the identity of the employee who used the
card or whether the purchase of such a large amount of fuel over a few days
was appropriate.

      Our testing further revealed at least nine instances when district
employees used fleet cards assigned to one vehicle to purchase fuel or
services for another vehicle. In one instance, a fleet card was used to make
two fuel purchases 10 minutes apart – one for regular gasoline and one for
diesel fuel. The vehicle to which this fleet card was assigned did not run on
diesel fuel. District management and the Property Officer told us that, in the
past, they believe employees borrowed and used each other’s fleet cards.
The Chief Deputy U.S. Marshal further told us that employees have been
instructed to pay for fuel with personal funds and subsequently request
reimbursement when their vehicles need fuel but they do not have the
proper fleet card with them.

       Had it been properly implemented, we believe the fleet card dispatch
log system could have ensured that the district could readily trace specific
charges to individual employees and hold employees accountable for their
purchases. However, the district would have needed to mandate that all
employees use the dispatch log to sign out and return fleet cards, and
ensure that employees did so. We therefore recommend that the USMS
improve the tracking and accountability of fleet card use by updating its
policies and procedures and developing a mechanism to mandate that
district employees who are assigned vehicles sign fleet cards in and out
using the dispatch log.

Unsupported Fleet Card Transactions

      USMS policies require districts to maintain complete and accurate
documents to support each fleet card transaction. Moreover, the district
requires employees with fleet cards to maintain a vehicle log detailing
vehicle condition, mileage, and the support for fleet card transactions. Each
month, employees with fleet cards are required to submit their vehicle log
and all corresponding receipts to their supervisor, who then sends the
vehicle log to the district’s oversight squad. If a receipt is not available,
employees are told to submit a signed verification of the transaction.

      To assess the support maintained by the district for fleet card
transactions, we reviewed the vehicle logs and receipts for the five district
vehicles recording the highest total-dollar transactions. From January 2009
to September 2011, the fleet cards for these 5 vehicles were used to make
1,222 purchases totaling $65,157.20

      As shown in Exhibit 5, receipts attached to the logs for these five
vehicles supported just $13,509 worth of transactions (21 percent of sample
value); the remaining $51,648 in expenses charged to these fleet cards
lacked receipts or other supporting documentation. The monthly logs for
one fleet card with 188 transactions totaling $14,655 included no receipts.

                  EXHIBIT 5: FLEET CARD SAMPLE RESULTS

                    Transactions Reviewed               Transactions Supported
                                                                        Percentage
    Tested                           Amount                  Amount     of Amount
    Vehicle          Number            ($)           Number    ($)       Reviewed
Fleet Card 1             149            11,319           30      2,443           22
Fleet Card 2             280            11,428           32      1,258           11
Fleet Card 3             272            13,569          114      5,629           41
Fleet Card 4             333            14,186           97      4,179           29
Fleet Card 5             188            14,655            0          0            0
         TOTAL         1,222          $65,157           273   $13,509          21%
Source: USMS

       Without complete vehicle logs and fleet card receipts, the USMS is not
able to verify the propriety of individual fleet card purchases or adequately
track how employees are using their assigned vehicles. Maintaining proper
support and accountability for individual transactions is particularly
important when transactions are paid all at once, as the USMS does with its
fleet card purchases. We therefore recommend that the USMS remedy
$51,648 in unsupported questioned costs by implementing a policy that
prohibits district employees who do not submit receipts or signed transaction
verifications, or otherwise prepare incomplete vehicle logs, from using USMS
vehicles, and by recovering improperly distributed funds as appropriate.




       20
            Even though these five vehicles constitute approximately 4 percent of the
district’s vehicle fleet, their fleet card charges constituted more than 10 percent of all
district fleet card purchases during this period.
Review Process for Fleet Card Transactions

      Concerned as to why district employees – especially heavy fleet card
users – could have submitted incomplete vehicle logs lacking receipts to
support fleet card charges, we also reviewed the district’s fleet card
oversight process. We found that at the end of each monthly billing cycle, a
supervisor reviews fleet card charges incurred by the district to look for
“suspicious” purchases and initials the cover page of the monthly statement
print-out. To perform this review, the district’s Administrative Officer
provides the reviewing supervisor with about 115 fleet card statements for
the district, which can total up to about 500 transactions each month. The
reviewing supervisor does not formally record the review or sign-off on the
allowability of the transactions, nor does the supervisor compare the
statements to the vehicle logs and receipts.

       We conclude that the supervisory review, as performed, does not
serve as an effective control to identify improper fleet card charges. First,
the fleet card statements provided to the supervisor do not include any
information regarding the vehicle’s type, make, or model. This makes it
exceedingly difficult for the reviewing supervisor to gauge whether the fuel
amounts and charges are reasonable as different types, makes, or models of
vehicles have different fuel efficiencies and tank capacities. Second, as
discussed in the dispatch log section, because fleet cards are assigned to
vehicles and not individual employees, supervisors cannot readily identify
the employee who used the fleet card to make a specific transaction by
reviewing fleet card bank statements. This is particularly important because
we found that employees incur widely varying fuel costs depending on how
far they live from the district office. 21 Third, the reviewing supervisor does
not trace bank statement entries, even on a test basis, to the vehicle logs or
receipts to ensure that charges are supported. Fourth, the methodology the
supervisor uses to review the statements is not standardized or
documented. Fifth, having 1 supervisor responsible for reviewing
115 different fleet card account statements each month is not an appropriate
“span of control” ratio of reviewer to card holder. Under DOJ credit card
policies, each component needs to ensure that supervisors or administrative
officers can perform effective oversight of government credit card use. 22
Although DOJ policies do not delineate an optimal span of control ratio, we
are concerned that a 1:115 span of control ratio between reviewers and fleet
card accounts, as we found at the district, does not provide effective

      21
            USMS employees used their assigned government-owned vehicles to commute as
little as 8 miles and as much as 154 miles to and from the office each work day.
      22
           Justice Management Division Charge Card Management Plan (January 2011).
oversight of fleet card and creates a realistic likelihood that a supervisor will
not identify improper charges.

       Based on our review of the internal control environment used by the
district to track and monitor fleet cards, we believe that the district’s entire
fleet card review process needs to be revamped. Simply requiring that
employees maintain vehicle logs and receipts will not help the USMS identify
improper fleet card transactions or make certain that employees use their
fleet cards properly. We therefore recommend that the USMS determine an
appropriate span of control ratio for the supervisory fleet card review
process and develop a formal district-level fleet card review methodology for
supervisors reviewing fleet card transactions. Such a methodology should
require that supervisors receive: (1) the fleet card statement, (2) the
vehicle log and receipts for the vehicle to which the fleet card was assigned,
(3) the fleet card user’s regular commuting distance, and (4) the vehicle’s
respective mileage and fuel tank size based on make and model.

Premium Fuel Purchases

      USMS policies state that government vehicles should use only the
manufacturer’s recommended type or octane rating of fuel. The district did
not have in its fleet any vehicles that required fuel with an octane rating
higher than regular unleaded. Nevertheless, we found that district
employees spent more than $59,000 on mid-grade and premium gasoline,
as shown in Exhibit 6.

           EXHIBIT 6: FUEL PURCHASES BY OCTANE RATING
                (JANUARY 2009 TO SEPTEMBER 2011)

                    Number of                Total Quantity        Total Amount
     Octane Rating Transactions                (Gallons)                ($)
    87 (Regular)*        11,904                      172,767              498,324
    89 (Mid-
    Grade/Super)          1,338                          18,195              53,144
    91 or 93
    (Premium)               132                        2,052                5,969
    Diesel**                 53                        1,064                3,496
              TOTAL     13,427               194,078 gallons             $560,933
    Source: USMS
    * Regular octane data includes 7 fuel purchases for fuel with “other” octane rating.
    ** Two district vehicles used to transport large numbers of detainees require diesel
       fuel.
      Applying the average weekly fuel price of gasoline recorded by the
U.S. Energy Information Administration (EIA) to the date and amount of
each mid-grade and premium fuel purchase, we found that district
employees’ purchase of $59,000 of mid-grade and premium fuels instead of
regular unleaded fuel cost the USMS an additional $2,500. 23 Because
premium and mid-grade fuel is not necessary for the operation of district
vehicles, purchases of higher-octane fuel violate USMS guidelines. We
recommend that the USMS incorporate as part of its fleet card review
methodology steps where (1) supervisors review fleet card statements and
receipts for premium and mid-grade fuel purchases and (2) district
employees must personally reimburse the USMS the cost of unnecessary
premium and mid-grade fuel.

Fleet Card Accounts Associated with Disposed Vehicles

       The OIG Sno Rush investigation also found that the former
Administrative Officer abused her capacity as Administrative Officer to obtain
a fleet card for a vehicle that was being disposed. Instead of allowing the
fleet card to be deactivated, Rush acquired the card and used it to purchase
fuel and other vehicle-related services for her personally owned vehicle. The
investigation found that Rush misused the fleet card assigned to this vehicle
for nearly 3 years to steal over $15,000 worth of fuel and vehicle-related
services.

       When the USMS disposes of a vehicle, the district is required to cancel
the vehicle’s corresponding fleet card immediately. To do so, the district
Administrative Officer contacts USMS Headquarters and request that the
fleet card account be canceled. The Property Officer is to physically destroy
the vehicle’s corresponding fleet card once this call is placed. However, we
found that USMS Headquarters does not confirm that the fleet card account
was cancelled and that the card was actually destroyed.

       We traced fleet card accounts active during our audit period to vehicles
and ensured that there was no financial activity on these accounts following
the disposition of the vehicle assigned to each account. That review
identified five fleet card accounts that corresponded to vehicles that had
been disposed of several months before the accounts were closed, although
none of the five fleet cards had been used after the assigned vehicle had
been disposed. Additionally, after the close of our audit period, USMS
Headquarters reconciled existing district fleet cards to vehicles and found

       23
           This calculation relies on the EIA’s weekly average fuel prices for the U.S. Central
Atlantic region reported from January 2009 to September 2011.
that 27 fleet card accounts should be closed because the account was
inactive. We confirmed that there was no activity on these 27 accounts
following vehicle disposition, and the USMS subsequently closed these
accounts during our audit.

       Considering the findings of the OIG investigation and the number of
inactive but not cancelled fleet cards at the district at the time we began this
audit, we remain concerned that the USMS will not expeditiously close fleet
card accounts that correspond to vehicles it has disposed of. As
demonstrated by Rush, fleet card accounts associated with disposed vehicles
can readily be used to make improper charges. We thus recommend that
the USMS establish policies and procedures ensuring that fleet cards
associated with vehicles that have been disposed are destroyed or otherwise
deactivated. Such a process should also require that USMS Headquarters
periodically reconcile district vehicles to fleet card accounts to identify fleet
card accounts that should be deactivated.

Purchase Cards

      The district uses government purchase cards to buy goods and
services such as uniforms, utilities, and weapons. Unlike fleet cards,
purchase cards are assigned to individual employees. From January 2009 to
September 2011, 7 district employees who had been assigned purchase
cards made 610 purchase card transactions totaling more than $360,000, as
shown in Exhibit 7. 24

      EXHIBIT 7: USMS SCDC PURCHASE CARD TRANSACTIONS
              (JANUARY 2009 TO SEPTEMBER 2011)

                                         Number of        Total Amount
                     Cardholder         Transactions           ($)
                  Cardholder 1                    212            106,075
                  Cardholder 2                    152             92,733
                  Cardholder 3                    127             85,654
                  Cardholder 4                     65             33,258
                  Cardholder 5                     26             29,543
                  Cardholder 6                     23             12,128
                  Cardholder 7                      5              1,380
                              TOTAL               610         $360,771
                  Source: USMS




      24
           As of December 2011, only three district employees had purchase cards.
       Employees assigned purchase cards are responsible for: (1) limiting
purchases to authorized thresholds; (2) purchasing only appropriate and
approved items; (3) recording purchases in the USMS financial system;
(4) maintaining supporting documents for purchases; and (5) reconciling
their purchases with the actual charges to their monthly purchase card bank
statements.

      To ascertain whether the district has internal controls in place to
ensure that district employees used purchase cards properly and adhered to
USMS policies governing purchase cards, we judgmentally selected a sample
of 99 purchase card transactions totaling $80,540, which was 22 percent of
the value of all purchase card transactions. Our sample evaluated whether
purchase card holders properly requisitioned and maintained adequate
documentation to support each sampled transaction.

Improper and Incomplete Requisitions

       USMS directives require that requisitions for supplies and services be
submitted by employees using an official USMS requisition form. The
requisition form requires employees to include a description, total cost, and
justification for the requested items. The requisition form must be signed by
both the approving and certifying officials. To ensure segregation of duties,
USMS policies prohibit the cardholder from being the employee requesting
the goods and services. The policies further prohibit the same official from
both approving the requisition and certifying that funds for the requisition
are available.

      Our sample of 99 transactions revealed that district employees did not
uniformly adhere to USMS procurement policies. We found three requisition
forms for the purchase of wrist bands and uniforms totaling $2,752 lacked
signatures of both the approving and certifying officials. In two cases, the
cardholder who purchased the goods was also the same employee who
requested the goods. Because the requisition forms did not contain the
required approving signatures, the transactions were not properly
authorized.

       We also found that district employees did not justify on the requisition
why 17 out of the sampled 99 purchases, costing more than $11,000 in
total, were necessary. For example, the requisition form for four Apple iPads
costing a total $2,505 (or $626 each) lacked any details regarding which
employees needed the devices or how the devices were to be used.
Although we were able to determine that the iPad purchases were part of a
DOJ-approved pilot program intended to improve communication between
managers, the requisition form lacked the required justification. Such a
justification is necessary for the approving official to assess the
appropriateness of the request prior to approval. Therefore, while ultimately
permissible, we concluded that the iPad purchases were not adequately
justified in the requisition at the time of purchase.

      In addition, we found that 1 cardholder certified that funds were
available for 17 of the cardholder’s own transactions totaling more than
$14,900. In three instances, adequate segregation of duties was not
achieved because the requestor of goods or services also certified the
availability of funds in contravention of USMS policies.

       We recommend that the USMS ensure that purchase card approving
officials not approve requisitions lacking required information, such as
justifications for the purchase. We further recommend that the USMS
strengthen the segregation of duties with regard to purchase cards by
precluding cardholders from certifying the availability of funds or approving
purchase requests related to their own purchases.

Unsupported Purchase Card Transactions

       The USMS requires that its districts maintain supporting documents,
including requisition forms, proof of availability of funds, invoices or receipts,
and receiving reports for all credit card purchases, and that they retain
documents supporting purchase card transactions for at least 6 years and
3 months. 25 In addition, cardholders are required to reconcile their purchase
card bank statements to the actual transactions each month. Approving
officials are required to review these reconciliations to ensure that the
purchased goods and services were for official purposes.

      Our audit found that the district did not maintain all of the documents
required to support the 99 tested transactions. As shown in Exhibit 8, we
found that only 29 of the 99 sampled transactions, valued at
$19,978 (25 percent of sample value), were properly supported with
requisition forms, invoices, and a receiving report necessary to demonstrate
what items or services were purchased and that the items or services
purchased were actually approved and received. The remaining 70 sampled
transactions totaling $60,562 (75 percent of sample value) lacked a
requisition form, receipt or invoice, or a receiving report.




       25
          A receiving report records the receipt, inspection, and acceptance of items and
services of a purchase.
             EXHIBIT 8: PURCHASE CARD SAMPLE RESULTS

         Required             Transactions With           Transactions Without
        Supporting                      Amount                        Amount
         Document            Number       ($)              Number       ($)
    Requisition Form              73       54,463                26      26,077
    Receiving Report              42       28,527                57      52,013
    Vendor Invoice                52       38,481                47      42,059
    Results Summary              29      $19,978                70 *
                                                                       $60,562
   Source: USMS
   *
      This figure counts each transaction once (regardless of the number of
     missing support documents).

      Of the 70 transactions missing at least 1 required supporting
document, 26 transactions totaling over $26,000 (32 percent of sample
value) lacked all 3 types of required supporting documents. Among these
26 transactions were 2 of the costliest sampled purchase card transactions –
one for $6,490 and another for $3,089, both placed at an office supply store.
Because there were no supporting documents for these transactions, the
USMS cannot show whether these purchases were approved, what items or
services these transactions purchased, or whether the items or services
purchased were actually received by the USMS. Further, by not maintaining
the documents needed to show that $60,562 worth of items and services
were necessary, approved, and received prior to payment, the district
cannot determine whether district employees used purchase cards to make
improper purchases.

       Moreover, none of the tested transactions included sufficient evidence
under USMS policy that funding was available at the time of purchase.
USMS policies state that the signature of the certifying official is not
sufficient evidence of the commitment of funding. The certifying official
must also provide a printout from the USMS financial system showing the
balance of remaining funds in the account to be charged. However, district
certifying officials did not include these printouts from the USMS financial
system. The Administrative Officer told us that she was not aware such a
document was necessary for purchase card transactions. We recommend
that the USMS remedy $60,562 in unsupported questioned costs by
implementing policies that ensure the district maintains the required support
for purchase card transactions and by recovering improperly distributed
funds as appropriate.
Purchase Card Reconciliation

       The USMS requires that purchase cardholders record all transactions in
its Purchase Card Information System (PCIS) and reconcile PCIS data with
their monthly purchase card bank statements. 26 The USMS also requires
managers to review the monthly purchase card bank statements.

       We reviewed the process the district used to reconcile and review
purchase card transactions to assess the district’s compliance with these
policies. We found that district cardholders recorded their purchases in PCIS
and that those purchase amounts matched the bank statements. However,
for 89 of the 99 transactions we reviewed totaling $73,852 (92 percent of
sample value), we found no evidence that the corresponding bank
statements had been reviewed by either the Administrative Officer or the
Chief Deputy U.S. Marshal.

      Given the potential for individual cardholders to make improper
purchases, which is an inherent risk of any purchase card system, and
particularly in light of the lack of supporting documents for many purchase
card transactions as previously noted, we believe it is important for district
managers to review and approve purchase card activity reconciled in PCIS to
bank statements on a regular basis, and to document these reviews in a
manner that allows the USMS to ensure that they are completed
expeditiously. We therefore recommend that the USMS ensure that district
managers receive and review the monthly reconciliation of purchase card
transactions and confirm that each transaction is proper and supported by
required documents.

District Security Officer Purchase Orders

       The USMS SCDC uses purchase orders to establish personal services
contracts to hire district security officers (DSO), who largely work in the
cellblock. DSO contracts are valued at $25,000 each and permit the DSO to
work up to 1,000 hours at a rate of $25 per hour. Even though they are
contractors, each DSO prepares and submits biweekly timesheets for
supervisory approval similar to full-time USMS employees. Between October
2008 and September 2011, the district hired 59 DSOs and spent a total of
over $3.76 million on DSO contracts.

       26
           Cardholders receive an automated email to notify them that they must reconcile
purchases generally by the end of each month. District employees are then required to
verify, reconcile, and submit the monthly credit card statement, together with relevant
documentation, to the reviewing official. Once all USMS cardholders reconcile their
purchases, the USMS makes the agency-wide payment.
      The OIG’s Sno Rush investigation found that the district’s former
Administrative Officer fraudulently approved a DSO guard contract in the
name of her minor stepson. She then prepared and approved false biweekly
timesheets under her stepson’s name. Because the timesheets were
approved, the USMS paid the stepson the amount due under the purchase
order, and Rush obtained the checks totaling $31,050 and deposited them to
her private bank account. In committing this fraud, Rush as the district’s
Administrative Officer had the responsibility of approving guard contracts
with minimal oversight or supervision. In FY 2009, the district transferred
the duty of approving guard contracts from the Administrative Officer to an
Assistant Chief Deputy U.S. Marshal.

       Working with the OIG Investigations Division, we reviewed the
purchase order records for the contract guards and confirmed the identity of
all district security officers hired in FYs 2009, 2010, and 2011, and we
determined that none of the security officers appeared to be fictitious or
otherwise fraudulent.

Recommendations

     We recommend that the USMS:

     6.    Improve the tracking and accountability of fleet card use by
           updating its policies and procedures and developing a
           mechanism to mandate that district employees who are assigned
           vehicles sign fleet cards in and out using the dispatch log.

     7.    Remedy $51,648 in unsupported questioned costs by
           implementing a policy that prohibits district employees who do
           not submit receipts or signed transaction verifications, or
           otherwise prepare incomplete vehicle logs, from using USMS
           vehicles, and by recovering improperly distributed funds as
           appropriate.
8.    Determine an appropriate span of control ratio for the
      supervisory fleet card review process and develop a formal
      district-level fleet card review methodology for supervisors
      reviewing fleet card transactions whereby (1) supervisors review
      fleet card statements and receipts for premium and mid-grade
      fuel purchases and (2) district employees must personally
      reimburse the USMS the cost of unnecessary premium and mid-
      grade fuel.

9.    Establish policies and procedures ensuring that fleet cards
      associated with vehicles that have been disposed are destroyed
      or otherwise deactivated.

10.   Ensure that purchase card approving officials not approve
      requisitions lacking required information, such as justifications
      for the purchase.

11.   Strengthen the segregation of duties with regard to purchase
      cards by precluding cardholders from certifying funds availability
      or approving purchase requests related to their own purchases.

12.   Remedy $60,562 in unsupported questioned costs by
      implementing policies that ensure the district maintains the
      required support for purchase card transactions, and by
      recovering improperly distributed funds as appropriate.

13.   Ensure that district managers receive and review the monthly
      reconciliation of purchase card transactions and confirm that
      each transaction is proper and supported by required
      documents.
III. ACCOUNTABLE PROPERTY

       The district generally complied with USMS property tracking
       procedures and, in general, its property team correctly recorded
       accountable property in the USMS automated property
       management system. However, our audit found that the district
       did not consistently enter acquired property into the property
       management system in a timely fashion and that the USMS
       needs to update its directives to ensure that weapons lost or
       stolen remain listed on the National Crime Information Center
       (NCIC) until they are recovered.

       The USMS defines accountable property as nonexpendable personal
property that costs $1,000 or more and has a useful life of at least 1 year. 27
The USMS maintains an automated property management system called
ARGIS that stores identifying information on each item of accountable
property for each USMS district. The USMS SCDC Chief Deputy U.S. Marshal
serves as the property custodian and is ultimately responsible for all
personal property at the district. A full-time Property Officer and a Property
Specialist work under the Chief Deputy to manage the acquisition, receipt,
recordkeeping, maintenance, and disposal of accountable property at the
district. The USMS requires that the district’s property team inventory
accountable property at least every 2 years.

       During our audit, ARGIS contained more than 1,300 accountable items
for the district, including vehicles, weapons, cell phones, and laptops, with a
total acquisition cost of approximately $4.6 million. The district’s 2007
biennial inventory identified 245 assets valued at nearly $1 million as stolen
or lost. These items accounted for 38 percent of the value of all property
the entire USMS reported as lost or stolen during 2007. In April 2009, the
USMS’s Board of Survey, which adjudicates matters of lost property,
attributed the results of the 2007 inventory to “possible negligence and poor
documentation on the disposal of accountable property.” The next
district-level accountable property inventory, which began in September
2010, reported just 11 items valued at almost $50,000 lost or stolen.
However, we note that some of the missing items were very expensive, such
as seven transceiver radios that cost $5,000 each.


       27
          Personal property items are tangible assets other than federal records and real
property. Expendable property is property which is consumed with use or loses its identity
in use, becomes a component part of another item, or has a useful life of less than one
year. Projectile-launching devices, firearms, sighting equipment, and items with data
storage capacity are considered accountable, regardless of value or life expectancy.
      Based on the results of the 2007 and 2010 inventories, we examined
the internal controls employed by the district to track and safeguard its
accountable property.

Property Acquisitions

      From October 2008 to September 2011, the USMS SCDC acquired
1,100 accountable property items that cost over $3.3 million. As shown in
Exhibit 9, a large portion of these funds (88 percent) was spent on vehicles
and portable radios.

            EXHIBIT 9: USMS SCDC ACCOUNTABLE PROPERTY
                         (FYs 2009 TO 2011)

           Asset Type           Number Acquired                  Cost ($)
        Portable radios                      305                     1,695,425
        Vehicles                              59                     1,217,727
        Weapons                              299                       238,923
        Electronics                          426                       107,276
        Miscellaneous*                        11                        43,792
                   TOTAL                  1,100                    $3,303,143
        Source: USMS
        * Miscellaneous includes security equipment such as ballistic shields, metal
          detectors, stun belts, and surveillance devices.

       While the district usually acquires accountable property through
purchases, the USMS can also acquire accountable property via other
methods, such as direct exchanges, transfers from another federal agency,
forfeitures, or gifts. The type of property being acquired dictates whether
USMS Headquarters or the district procures the property. With regard to
accountable property, districts can only purchase electronics and certain
miscellaneous security equipment, while USMS Headquarters is responsible
for purchasing vehicles, weapons, and radios.

      The Property Officer places a unique barcode on accountable property
items when they are received and accepted by the district. For accountable
property costing less than $25,000, USMS policies require property officers
to record the property in ARGIS within 10 business days of receipt. 28


      28
          The USMS Office of Property Management records in ARGIS all property over
$25,000. In FY 2011, the USMS decided to shift the responsibility of recording vehicles in
ARGIS (including those under $25,000) to the Office of Property Management to resolve the
issue of duplicate entries in ARGIS.
      We reviewed district ARGIS entries and identified three duplicate
barcodes and one duplicate serial number in the system. We determined
that two of the entered barcode numbers were not recorded correctly into
the system. The third barcode corresponded to the duplicate serial number,
and the Property Officer confirmed that this was a duplicate entry for one
property item. Upon learning of the erroneous and duplicate entries, the
USMS corrected the data in ARGIS.

      We also judgmentally selected 7 purchases of 20 accountable property
items totaling $5,892 to determine whether the property was recorded in
ARGIS within 10 business days of receipt. Our sample selection was largely
predicated on whether the property item was easily susceptible to theft. As
shown in Exhibit 10, our review found that although the district property
team recorded each of the sampled items in ARGIS, the district did not
record 8 of the 20 sampled items within the required 10 business days after
receipt, and one item was not recorded until 198 days after receipt. 29

        EXHIBIT 10: RESULTS OF ACQUIRED PROPERTY REVIEW

                                                            Time to Record
                                                                in ARGIS         Recorded
                                                 Amount        (Business        Accurately
No.     Purchased Property           Quantity      ($)            Days)          in ARGIS
1    Global Positioning System                5    1,279    17                  Yes
2    Training Pistol                          3    1,200    9                   Yes
3    Global Positioning System                8    1,156    Undetermined*       Yes
4    Global Positioning System                1    1,025    0                   Yes**
5    iPad 2                                   1      626    37                  Yes
6    Taser                                    1      350    198                 Yes
7    Global Positioning System                1      256    15                  Yes
                           TOTAL 20 Items         $5,892
Source: USMS
* The USMS could not provide documents showing when the property was received.
** The district recorded this item twice in ARGIS.

       We also found one item – a Global Positioning System (GPS) beacon
and tracker unit that cost $1,025 – recorded in ARGIS twice. We reviewed
the requisition and other supporting documents and confirmed that the
district purchased only one GPS beacon in that transaction.


       29
           USMS officials told us that the district did not record the iPad within 10 days
because the purchase was first sent to USMS Headquarters for configuration. For one
additional tested transaction, the district could not provide documents to show when it
actually received the property; therefore, we could not ascertain whether the district timely
recorded assets purchased in this transaction in ARGIS.
      Recording accountable property promptly and accurately in ARGIS is
an important step in ensuring that accountable property is adequately
tracked and safeguarded. Inaccuracies and delayed entries complicate the
inventory process and increase the likelihood that items could be lost or
misused. We therefore recommend that the USMS ensure that the district
promptly and accurately records accountable property items in ARGIS.

Physical Inventories

       In addition to performing a physical inventory of all accountable
property at least every 2 years (the biennial inventory), districts must
inventory capitalized property and firearms annually. The objective of an
inventory is to record and physically identify all accountable property. As a
critical internal control, it is imperative that districts complete required
inventories on time and accurately.

      USMS physical inventories are referred to as “wall-to-wall” because, in
performing the inventory, a team of employees inspects all areas it may
reasonably expect to contain USMS accountable property. The Property
Custodian is responsible for reporting to USMS Headquarters any items
unaccounted for or otherwise not listed on the inventory. The Property
Custodian also must report any missing sensitive property – laptops,
firearms, vehicles, and radios – to the NCIC, which serves as a countrywide
clearinghouse for information regarding criminal activity.

      From FY 2009 to 2011, the district conducted eight property
inventories, including its biennial inventory in FY 2010. We reviewed
inventory records and found that the district generally complied with USMS
inventory procedures. However, we noted that the FY 2010 biennial
inventory was completed approximately 1 month after its required due date.

       We identified two factors that contributed to the delayed completion.
First, even though the Property Officer is required to annotate the location or
individual holding the property when conducting the inventory, the property
information sheet that USMS Headquarters provides for use during
inventories does not include a field or entry denoting where the item was
last located or which employee was assigned the items. The lack of this
information on the inventory sheet may delay the efforts of subsequent
inventory teams attempting to locate the same property during the next
inventory. We therefore recommend that the USMS revise its inventory
sheet to provide a field for personnel to record the location or individual
holding the property.
      Second, in one instance, a district employee transferred to another
USMS duty station, but the employee’s new district did not complete the
property transaction form needed to remove a weapon from the USMS
SCDC’s inventory. Without this form, the property team could not be
assured that the weapon was transferred. We recommend that the USMS
ensure that districts that receive property from another district submit on
time all required property forms.

       In addition, we sampled 18 property items recorded in ARGIS with an
original cost of about $96,000 and determined that the district was able to
account for all 18 items. We also selected a sample of 15 property items
that we found physically located in USMS-controlled areas of the SCDC and
traced these items back to ARGIS. The purpose of this selection was to test
whether the district’s property records were complete. We found that the
district had generally recorded the items in ARGIS.

Tracking Lost or Stolen Firearms

       USMS directives state that stolen or missing firearms must be reported
to the National Crime Information Center (NCIC), which serves as a national
clearinghouse for information regarding criminal activity. District inventories
listed approximately 450 USMS weapons including pistols, rifles, and
machine guns. During our audit period, district employees reported stolen
two USMS-owned weapons: an AR-15 semi-automatic rifle and a shotgun.

       Both weapons were stolen on May 16, 2009, from the trunk of a USMS
vehicle parked outside a residence and reported to the NCIC shortly
thereafter by the local police department. 30 The stolen shotgun was reported
to be recovered by another police department approximately one month
after the theft. 31 The AR-15 rifle, however, was not recovered until
February 6, 2013, when it was found at the residence of an acquaintance of
a suspect in an armed robbery. At the time the AR-15 was recovered, it was
no longer listed in the active NCIC database that is available to law
enforcement investigators online. Instead, the listing had been removed


       30
         Our audit found that the USMS confirmed that the stolen weapons were listed to
the NCIC shortly after they were found to have been stolen.
       31
           According to the Firearms Tracing Branch of the Bureau of Alcohol, Tobacco,
Firearms, and Explosives, the District of Columbia Metropolitan Police Department reported
that it recovered the shotgun at a traffic stop in June 2009. We note, however, that the
police report for the incident stated that the suspect was charged with carrying a pistol
without a license. We did not attempt to resolve this apparent inconsistency because it was
outside the scope of our audit.
from the active database in October 2012 and retained only in on offline
database available to NCIC staff.

       Our audit was unable to determine why the listing for the AR-15 rifle
was removed from the active NCIC database in October 2012. An NCIC
official told us that the most likely reason would have been that the local
police department that originally listed the weapon’s theft with the NCIC had
not responded to the NCIC’s attempts to confirm that the weapon was still
missing.

      In addition, our audit identified an inconsistency in USMS directives
with regard to which official is responsible for reporting lost or stolen
weapons to the NCIC: USMS Directive 2.3 states that the USMS
Communications Center should report any theft or loss of a firearm to the
NCIC, while USMS Directive 7.1 states that reports to the NCIC are the
responsibility of the district Property Custodian.

        When stolen USMS weapons are not properly listed in the active NCIC
database, other law enforcement agencies face unnecessary obstacles in
their efforts to identify those weapons when they are recovered. We
therefore believe that the USMS should take affirmative steps to ensure that
all of its stolen weapons are listed promptly with the NCIC and remain so
until they are recovered. We recommend that the USMS review its
directives to clarify who within the USMS is responsible for reporting lost or
stolen weapons to the NCIC. We also recommend that the USMS develop a
policy to ensure that if one of its weapons is stolen in the future, the weapon
will remain listed in the NCIC until it is recovered. Such a policy should
require, if applicable, that the USMS work closely with reporting law
enforcement agencies to provide any information requested by the NCIC,
and that it periodically check on the status of missing and stolen weapons in
the NCIC database to confirm that they are properly listed until they are
recovered.

Property Disposals

      Property disposals refer to the transfer, donation, sale, or destruction
of accountable property and result in the removal of the disposed items from
USMS records. The district must request and receive approval and
instructions for any disposal from the USMS Office of Property Management.
However, the techniques used to dispose of different types of property may
vary. For example, property containing hard drives or memory must be
disposed of using methods that ensure that all data is destroyed.
      During the audit period, the district disposed of 314 accountable
property items. We selected a sample of 50 disposed assets with an original
acquisition value of more than $482,000, including vehicles, weapons, and
radios, to determine whether the district complied with USMS disposal
procedures and adequately removed property items from its inventory. We
found that the district usually excessed the property to the General Services
Administration and generally performed the required disposal procedures.

Recommendations

     We recommend that the USMS:

     14.   Ensure that the district promptly and accurately records
           accountable property items in ARGIS.

     15.   Revise its inventory sheet to provide a field for personnel to
           record the location or individual holding the property.

     16.   Ensure that districts that receive property from another district
           submit on time all required property forms.

     17.   Review its directives to clarify who within the USMS is
           responsible for reporting lost or stolen weapons to the NCIC.

     18.   Develop a policy to ensure that if one of its weapons is stolen in
           the future that the weapon will remain listed in the NCIC until it
           is recovered.
                  STATEMENT ON COMPLIANCE
                 WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices to obtain reasonable assurance that the
management of the U.S. Marshals Service (USMS) complied with federal
laws and regulations for which noncompliance, in our judgment, could have
a material effect on the results of our audit. The USMS’s management is
responsible for ensuring compliance with applicable federal laws and
regulations. The specific laws and regulations we reviewed included the Law
Enforcement Availability Pay Act, the Fair Labor Standards Act, and the
Federal Acquisition Regulation.

       Our audit included examining, on a test basis, the USMS’s compliance
with the aforementioned laws and regulations that could have a material
effect on the operations of the USMS SCDC. We accomplished this by
interviewing personnel, analyzing data, assessing internal control
procedures, and examining procedural practices. During this audit, nothing
came to our attention that caused us to believe that the USMS as a whole
was not in compliance with the aforementioned laws and regulations.
            SCHEDULE OF DOLLAR-RELATED FINDINGS


DESCRIPTION                                              AMOUNT ($)              PAGE

QUESTIONED COSTS 32

   Unsupported Costs

       Payments pertaining to 3,994 hours of
       sampled overtime that lacked evidence
       of prior request and supervisory
       approval                                                  144,831           11

       Payments pertaining to 420 hours of
       sampled overtime lacking
       contemporaneous supervisory
       confirmation                                               18,212           11

       949 sampled fleet card transactions
       lacking required receipts                                  51,648           21

       70 sampled purchase card transactions
       lacking required requisition forms,
       receiving reports, or vendor invoices                      60,562           27

   Total Unsupported Costs                                       275,253

TOTAL QUESTIONED COSTS                                           275,253




       32
          Questioned costs are expenditures that are not supported by adequate
documentation at the time of the audit or otherwise do not comply with legal, regulatory or
contractual requirements.
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objective of this audit was to assess the internal controls over
financial management for the U.S. Marshals Service’s Office in the Superior
Court of the District of Columbia (USMS SCDC). We conducted our review
largely in response to the results of a U.S. Department of Justice Office of
the Inspector General (OIG) investigation into fraudulent financial activity
committed by a former Administrative Officer at the district. Our review
focused on three primary areas that the investigation found had weak
internal controls which the former USMS Administrative Officer took
advantage of in order to steal government funds: (1) salaries and overtime;
(2) procurement using fleet cards, purchase cards, and guard contracts; and
(3) accountable property and inventory controls.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

     Unless otherwise stated in the report, the scope of our audit generally
covered the period of October 1, 2008, through September 30, 2011.
Because the USMS began using a new fleet and purchase card system in
January 2009, the scope of our review of procurement activity was limited to
January 1, 2009, to September 30, 2011.

      To meet the objectives of the audit, we tested compliance with what
we considered to be the most important laws, regulations, and policies
pertaining to the financial management of a USMS district. As noted in the
report, in establishing the methodology of our review, we considered the
results of other OIG investigations that found financial mismanagement and
abuse at the USMS SCDC and at the nearby USMS district at the U.S. District
Court for Washington, D.C. We further identified internal controls that the
USMS reported it had in place to ensure policies were followed appropriately.
      We performed our audit work at the SCDC in Washington, D.C., and
USMS Headquarters in Arlington, Virginia. We conducted over 60 interviews
involving over 40 USMS officials and employees. We discussed with the new
Administrative Officer the control environment at the district in August 2009
and changes made since the time of her hire, as well as the functions carried
out by the administrative staff under her supervision or authority. We
interviewed district supervisors about each of the district’s operational
sections and the procedures they employed over time and attendance and
property. We interviewed the district Property Officer about the physical
inventories conducted by the district’s property team since the 2007
inventory that found nearly $1 million of missing property, and about the
overall tracking and safeguarding of accountable property at the district. To
understand how district employees completed hard-copy timesheets and
how the time and attendance process changed with the transition to WebTA,
we interviewed the Administrative Assistant charged with time and
attendance record-keeping. We also interviewed USMS officials from the
Office of Property Management, Financial Services Division, and Human
Resources Division concerning ARGIS, the purchase card system, and the
USMS financial system.

      We obtained the universe of payroll data for employees who worked at
the district in FYs 2009 through 2011 from the National Finance Center.
Statisticians with the OIG Office of Advanced Audit Techniques reviewed the
data for completeness and accuracy. The USMS further provided us with
direct access to the fleet and purchase card system and we obtained the
universe of fleet and purchase card transactions during the period of
January 1, 2009, to September 30, 2011. We also obtained the universe of
property acquisitions and disposals made by the district from October 1,
2008, to September 30, 2011.

       Once the necessary data was obtained, we selected judgmental
samples for each of the areas we reviewed for testing. The purpose of
employing discrete judgmental sample designs on each subset of data was
to obtain a broad exposure to the numerous facets of the specific area
reviewed, including to determine whether: (1) USMS employees obtained
supervisory approval to work overtime, (2) Criminal Investigators who
received law enforcement availability pay worked the minimum number of
unscheduled duty hours required by law, (3) district vehicle operators
submitted required supporting documentation for purchases made using
fleet cards, (4) district purchase card holders followed procurement policies
in their purchase activity, and (5) accountable property at the district was
received and disposed timely and in accordance with policies.
       We selected 319 sample units, defined as one employee’s pay period,
for testing of overtime to include employees who had a significant number of
overtime hours in a single year. Additionally, as part of our analysis of
salaries and overtime, we analyzed payroll data to identify Criminal
Investigators who did not appear to work a substantial majority of their
unscheduled duty hours. Based on our analysis, we selected six sample
units, defined as one Criminal Investigator’s entire fiscal year time and
attendance records, for testing to include two Criminal Investigators from FY
2009, 2010, and 2011 that appeared to not work a substantial majority of
their unscheduled duty hours over the course of a single year. The USMS
informed us that, because of the ongoing investigations at the district, many
of the district’s time and attendance records had been removed from the
district. Therefore, our testing was limited to those records which the USMS
was able to locate and provide to us. When we did not have a specific
record, we applied the ratio of regular workdays to unscheduled duty hours
across the entire assessed year. We do not believe the lack of these
timesheets negatively affected any estimates or conclusions made with
regard to this analysis.

       For our review of fleet card transactions, we judgmentally selected a
sample of 28 fleet card accounts which had nearly 1,900 transactions
totaling $87,715 to determine whether charges could be traced to specific
employees. Our sample included fleet cards that were used to make
purchases on weekends, evenings, or at gas stations located far from the
SCDC. We also selected to review supporting documents for the five fleet
cards totaling the highest-dollar transactions from January 2009 to
September 2011. These 5 fleet cards were used to make 1,222 purchases
totaling $65,157. To determine whether purchase card holders used
purchase cards to make allowable and approved purchases, we selected a
sample of 99 purchase card transactions totaling $80,540. Our sample
included purchase card transactions with a high dollar amount, made on
weekends or holidays, or involving vendors with an unusual merchant name.

      To determine whether the district recorded acquired property timely
and accurately in ARGIS, we judgmentally selected 7 purchases of
20 accountable property items totaling $5,892. We also physically inspected
18 property items recorded in ARGIS with an original cost of about
$96,000 to ensure the district could account for all the items. During our
physical inspection of property items, we selected a sample of 15 items that
we found physically located in USMS-controlled areas of the SCDC to ensure
those items were recorded in ARGIS. Moreover, we selected a sample of 50
disposed assets with an original acquisition value of more than $482,000 to
determine whether the district complied with USMS disposal procedures and
adequately removed property items from its inventory. Because the USMS
only maintains asset disposition records for 2 years, our disposal sample was
limited to this timeframe.

      Because the samples for salaries and overtime, fleet and purchase
cards, and accountable property were selected judgmentally, the results of
the sample testing cannot be projected to the total universe of purchase
transactions.

      Throughout the audit, we relied on computer-generated data provided
by the district and headquarters, which contained payroll data from the
National Finance Center, procurement activity from the USMS financial
system and purchase card system, and property records from ARGIS. We
further relied on weapons listings provided by NCIC officials from its offline
database. Although we did not test the reliability of these systems as a
whole, we believe that our reliance on the aforementioned computer-
generated data did not significantly affect the outcomes of our audit or
impede meeting the audit objective.
                                                                              APPENDIX II

                   USMS SCDC OPERATIONAL SECTIONS
                  (Prior to January 2013 Staffing Plan Update)

 Operational
   Section                                          Functions
                Maintain physical security in the cellblock and transport prisoners to and from
                local detention facilities. The adult cellblock is opened at 6:30 a.m. on Monday
   Cellblock
                and Friday, and 7 a.m. Tuesday through Thursday. The cellblock remains open
 (A.M. & P.M.
                until the last prisoner is transferred or released from the facility. The juvenile
    Shifts)
                cellblock is open from 7:30 a.m. Monday through Saturday, until the last
                juvenile is transferred or released.
Court Support
              Produce prisoners from the cellblock to the courtrooms and maintain security
 (A.M. & P.M.
              and decorum in the courts.
    Shifts)
                Execute and close a variety of criminal warrants, including warrants held by the
  Warrants
                USMS SCDC and federal warrants, and conduct fugitive investigations.
                Comprised of two main components – the Protective Operations and Capital
                Projects section and the Office of Court Security. The former plan and executes
   Judicial
                the protective details for all Superior Court functions including investitures,
   Security
                conferences, training and site visits, and monitors courthouse renovations. The
   Branch
                latter is responsible for the Special Security Officer Program and for conducting
                building surveys.*
                Process and execute residential and commercial evictions filed with the SCDC
    Writs
                Landlord and Tennant Office, civil warrants, seizures, and court orders.

                Coordinate and transport prisoners on Writ of Habeas Corpus ad Prosequendum,
  Prisoner
                Writ of Habeas Corpus ad Testificandum, Attorney’s Special Request, Warrant of
 Operations
                Removal, and inmates that have been federally designated.
                Oversee the management of the district’s vehicle fleet, fulfill the role of the
  Oversight     Contracting Officer Technical Representative for guard contracts, and conduct
                annual compliance assessments.
            Two special response teams assembled upon call. SWAT is responsible for
SWAT/ SWIFT high-risk entries, facilities, trials, and prisoner movements. SWIFT is a rapid
            deployment team responsible for evacuating key personnel to a safe site.
                Provide threat assessments for any high threat operation, such as high-profile
     OPI
                trials, and high-threat civil process and fugitive investigations.

Administrative Responsible for overseeing human resource management, procurement, budget,
   Office      and property accountability functions.
 Source: USMS
      *
         Special Security Officers (SSO) are not employees of the USMS. The SSOs are
         employed by a privately-owned and managed security company. The Judicial
         Security Branch is required to conduct Background Investigations for the SSO
         Program.
                                                         APPENDIX III

TOP 20 USMS SCDC EMPLOYEES BY OVERTIME
           REPORTED WORKED
           (FY 2009 TO 2011)

                                                Total Overtime
                              Overtime          Compensation
 Employee Name                 Hours                  ($)
Employee 1                          5,018               204,992
Employee 2                          3,899               158,749
Employee 3                          3,221               120,588
Employee 4                          2,466                 98,351
Employee 5                          2,462                 95,966
Employee 6                          2,640                 92,930
Employee 7                          2,204                 92,000
Employee 8                          2,172                 88,093
Employee 9                          2,084                 85,901
Employee 10                         2,157                 84,824
Employee 11                         2,220                 82,618
Employee 12                         1,955                 81,041
Employee 13                         1,896                 78,117
Employee 14                         2,186                 77,952
Employee 15                         1,798                 74,658
Employee 16                         1,615                 74,364
Employee 17                         1,782                 74,148
Employee 18                         1,733                 71,287
Employee 19                         1,963                 70,535
Employee 20                         1,949                 69,085
            TOTAL            47,420 hours          $ 1,876,199
Source: USMS
* Figures presented adjusted due to rounding.
                                                                                       APPENDIX IV

THE UNITED STATES MARSHALS SERVICE’S RESPONSE
          TO THE DRAFT AUDIT REPORT


                                                    U.S. Department of Justice

                                                    United States Marshals Service

                                                     Associate Director/or Administration


                                                     Atexandria, Virginia 2230/-/025


                                                        May 15, 2013




         MEMORANDUM TO:         Raymond Beaudet
                                Assistant Inspector General for Audit

                     FROM:      Ste~p  t 1Cl(ens~c::::::s
                                                    ~;;----­
                                Associate Director fo r Administration

                  SUBJECT:      Response to Draft Audit Report: Audit of the Fi nancial
                                Management of the United States Marshals Service's Office in the
                                Superior Court of the District of Co lumbia


           This memorandum is in response to correspondence from the Office of the Inspector
   General req uesting comment on the recommendati ons associated with the subject draft audit
   report. Please find attached our response.             .                   .

           Should you have any questions or concerns regarding this response, please contact
   Isabel Howell , Audit Li aison, at 202-307-9744.

   Attachments

   cc:     Louise Duhamel
           Acting Director, Audit Liaison Group
           Internal Review and Evaluation Office
           Justice Management Di vision

           Isabel Howell
           External Audit Liaison
           United States Marshals Service
                            USMS Response to OIG Draft Report
    Audit of the Financial Management of the United States Marshals Service's Office in the
                      Superior Court of the District of Columbia (SCDC)


Recommendation 1: Develop a solution to reduce the USMS SCDC's reliance on
cellblock overtime for Saturdays.

Response (Concur): Current fiscal challenges notwithstanding, the USMS will develop a long
term solution that reduces the reliance on Saturday overtime at SCDC. The USMS will provide
OIG documentation of the solution when it is developed.

Recommendation 2: Continue to assess cellblock operations under the January 2013 staffing
plan to establish the ideal number of staff needed in the USMS SCDC cellblock, and if
necessary, update the district staffing plan to meet that number.

Response (Concur): Since its January 2013 implementation, the new staffing plan has been
under assessment by District management. During the last four months, District management
has determined that the January 2013 staffing model provides a safe and secure environment and
properly addresses the amount of staff needed in the cellblock.

Recommendation 3: Remedy $163 ,043 in unsupported questioned costs by seeking, as
appropriate, recovery of funds it determines were improperly distributed and Updating its
WebTA policies and procedures to require that district employees submit overtime requests
before working overtime shifts.

Response (Concur): The USMS Human Resources Division (HRD) will update time and
attendance policy and procedures to require that overtime requests are submitted prior to
working overtime shifts. The policy update will be drafted in the fourth quarter of the current
fiscal year (FY), and finalization and dissemination are expected by the second quarter of
FY 2014. The revised policy will be provided to OIG once it has cleared the policy review
process and been finalized, signed, and disseminated. If funds have been distributed improperly,
the USMS will seek to recover such payments.

Recommendation 4: Require district managers track unscheduled duty time worked by
Criminal Investigators in a manner that: (I) provides them with regular snapshots of unscheduled
duty hours worked by each Criminal Investigator, and (2) identifies Criminal
Investigators who do not appear to be working a substantial majority of unscheduled duty hours.

Response (Concur): District management has now provided guidance to SCDC Criminal
Investigators on the use and documentation of LEAP hours. Management has initiated a process
that will track LEAP hours on a regular basis. The Financial Services Division (FSD) and HRD
are developing specific reports that will assist the District in tracking unscheduled duty hours
worked. During the interim, FSD will provide SCDC with reports as needed.
Recommendation 5: Require that the USMS SCDC implement corrective action to increase
unscheduled duty hours for Criminal Investigators who are not working a substantial majority of
the required average of unscheduled duty hours.

Response (Concur): The District will develop and implement a standard operating procedure
(SOP), including internal controls, that will stipulate that Criminal Investigators identified
through the aforementioned tracking system (see response to Recommendation 4) will be
notified by their immediate supervisor that they are not meeting the required average of
unscheduled LEAP hours. The supervisor will schedule a meeting with the employee to
determine whether a recording issue exists or whether the employee is not working LEAP and/or
is not available to work LEAP. The employee will be counseled by hislher supervisor regarding
the use of LEAP and USMS LEAP policy, and will be provided the proper guidance and
opportunity to work and/or be available to work LEAP. The employee will also be notified in
writing that he/she may be subject to decertification if he/she continually fails to meet the
required average of unscheduled LEAP hours. A copy of the new SOP will be provided to OIG
when complete.

Recommendation 6: Improve the tracking and accountability of fleet card use by updating its
policies and procedures and developing a mechanism to mandate that district employees who are
assigned vehicles sign fleet cards in and out using the dispatch log.

Response (Concur): Currently, fleet cards are assigned to each individual vehicle for payment
of costs (e.g., gas, repairs, etc.) associated with that specific vehicle. All unassigned fleet cards
are to be locked in a safe and monitored by the Administrative Officer. Additionally, Fleet
Credit Cards for Prisoner vans and unassigned vehicles are to be signed in and out by district
personnel when the vehicle is used. The district also uses an electronic key and credit card
watcher system that logs the specific person who checks out the vehicle keys and credit card.
The system also allows for detailed reporting. In addition vehicle mileage is logged on the
USM-75. These procedures are being documented in a formal internal control SOP. OIG will be
provided a copy of the SOP once completed.

Recommendation 7: Remedy $51,648 in unsupported questioned costs by implementing a
policy that prohibits district employees who do not submit receipts or signed transaction
verifications, or otherwise prepare incomplete vehicle logs, from using USMS vehicles, and by
recovering improperly distributed funds as appropriate.

Response (Concur): District management is currently drafting a SOP that will provide detailed
guidance regarding government vehicles and fleet cards, and will provide OIG with copy of the
SOP once completed. In the interim, District management has notified all operational personnel
who are assigned vehicles that if they fail to comply with existing USMS policy requiring the
submission of receipts or signed transaction verifications, or if they otherwise prepare
incomplete vehicle logs, their assigned GOV may be placed back into the motor pool for
reassignment. In addition, the District section supervisors are responsible for reviewing and
initialing monthly statements along with any supporting documentation to include receipts.
(Please see Attachment 1, 5/3/13 email from CDUSM James Brooks to all District personnel.)
Recommendation 8: Detennine an appropriate span of control ratio for the supervisory fleet
card review process and develop a fonnal district-level fleet card review methodology for
supervisors reviewing fleet card transactions whereby (l) supervisors review fleet card
statements and receipts for premium and mid-grade fuel purchases and (2) district employees
must personally reimburse the USMS the cost of unnecessary premium and midgrade fuel.

Response (Concur): Currently, the District section supervisors are responsible for
approximately III vehicles. This responsibility includes reviewing and initialing monthly
statements along with any supporting documentation, to include receipts, which show the type of
fuel purchased. Each section has no more than 16 vehicles assigned. District management is
currently drafting a SOP that will provide detailed guidance regarding government vehicles and
fleet cards. 010 will be provided a copy of the SOP once complete. In the interim, District
management has notified all employees via email that only standard and regular fuel is allowed
for use in the vehicles. Moreover, the email indicated that individual employees may be held
responsible for any charges over and above the regular fuel charges if the policy is not followed.
(Please see Attachment 1,5/3/13 email from CDUSM James Brooks to all District personnel.)
Lastly, District management will coordinate with the Fleet Card Agency Organization Program
Coordinator (AOPC) to provide training on using the JP Morgan Fleet card database (Payment
Net) for monitoring activities of Fleet Card transactions.

Recommendation 9: Establish policies and procedures ensuring that fleet cards associated with
vehicles that have been disposed are destroyed or otherwise deactivated.

Response (Concur): District management will coordinate with the Fleet Card AOPC to provide
training on using the JP Morgan Fleet Card Database (Payment Net) to monitor active Fleet
Cards. The District will also ensure that the Office of Fleet Management is notified when a
vehicle has been sold or destroyed. Further, effective March 2013, the Office of Fleet
Management provides a monthly list to the Fleet Card AOPC outlining vehicles that were sold or
destroyed during that month, so that action can ensue to tenninate those vehicle fleet cards, as
needed (Attachment 2). Additionally, cards inactive for one year will be suspended
automatically. A draft policy revision addressing this issue is currently under review. Proposed
language is as follows: "If a fleet card is inactive for 1 year, then the card will be suspended. If a
suspended card needs to be reactivated, the cardholder has 10 days from the suspension date to
contact OFM to request the reactivation. If 10 days pass after the suspension, the card will be
cancelled."

Recommendation 10: Ensure that purchase card approving officials not approve requisitions
lacking required infonnation, such as justifications for the purchase.

Response (Concur): District management will coordinate with the Purchase Card AOPC to
provide training on approving o~cial responsibilities. To ensure completeness and appropriate
justifications, District management and the Purchase Card AOPC will conduct reviews on
requisitions and supporting documentation for supplies and services. We will encourage
justification of purchases on all purchase card documents regardless of the micro-purchase
exception.
Recommendation 11: Strengthen the segregation of duties with regard to purchase cards by
precluding cardholders from certifying funds availability or approving purchase requests related
to their own purchases.

Response (Concur): With the implementation of the Unified Financial Management System
(UFMS) in October 2012, purchases above the micro-purchase are now entered into UFMS and
the segregation of duties is managed within the system.

Recommendation 12: Remedy $60,562 in unsupported questioned costs by implementing
policies that ensure the district maintains the required support for purchase card transactions, and
by recovering improperly distributed funds as appropriate.

Response (Concur): See response to Recommendation 10. Additionally, District management
will prepare appropriate paperwork and forward it for review and necessary action as outlined in
USMS Policy Directive 6.I.G, Ratifications o/Unauthorized Commitments, to include review by
the Ratification Review Board as necessary. (See Attachment 3, PD 6.1, p. 3)

Recommendation 13: Ensure that district managers receive and review the monthly
reconciliation of purchase card transactions and confirm that each transaction is proper and
supported by required documents.

Response (Concur): Per USMS Policy Directive 6.8, GSA SMARTPAY2 Commercial Credit
Card Program, card holders and approving officials must review and sign their monthly
statements and attach supporting documentation to ensure that purchases are proper. The Office
of Procurement (OOP) will also conduct biannual reviews of district/division purchase card
transactions. District management will implement standard operating procedures to ensure the
monthly review and approval of the statements. A copy of the new SOP will be provided to OIG
once completed.

Recommendation 14: Ensure that the district promptly and accurately records accountable
property items in ARGIS.

Response (Concur): The Office of Property Management has implemented a District Dashboard
tool that accurately records accountable property items entered in ARGIS within 15 calendar
days. When districts do not comply with the 15-day requirement, the Dashboard puts them in the
RED (non-compliant). The CDUSM is then notified immediately that his/her district is not in
compliance with policy and procedures. A Property Management Specialist at USMS
Headquarters reviews the Dashboard on a monthly basis to monitor district offices' compliance
with the I 5-day requirement. Attached is a screenshot of the current District Dashboard for
SCDC, showing that the District is in compliance with the 15-day requirement. (Please see
Attachment 4, District Dashboard Screenshot.)

Recommendation IS: Revise its inventory sheet to provide a field for personnel to record the
location or individual holding the property.
Response (Concur): The current property management system has a "location" field that the
district Property Officer can populate for accountable property assigned to each employee.
This can be accomplished during the annual review of hand receipts and/or while performing the
biennial inventory. This will ensure that the location field is populated with the most current
information. (Please see Attachment 5, ARGIS Screenshot.)

Recommendation 16: Ensure that districts that receive property from another district submit on
time all required property forms .

Response (Concur): Per USMS Policy Directive 7.1.2, Properly Acquisition and Disposal,
F 6.b, c, the gaining Property Custodian and losing Property Custodian should work together on
property to be transferred between districts and ensure documentation (Form USM-170) is
forwarded to the Office of Property Management for adjustment in the property management
system. To ensure districts are complying with this policy, the District Self-Assessment Guide
(SAG) will be revised to address this issue. The revised Self-Assessment Guide will be
disseminated to all districts in the fourth quarter ofFY 2013. A copy of the revised SAG will be
provided to 01 G.

Recommendation 17: Review its directives to clarify who within the USMS is responsible for
reporting lost or stolen weapons to the NCIC.

Response (Concur): The USMS Training Division has consulted with all affected divisions in
order to correct current policies and introduce revisions which clarify responsibilities for
reporting, notification, and annual NCIC entry confirmation requirements. A copy of revised
Policy Directive 2.3 will be provided to OIG once it has cleared the policy review process and
been finalized, signed, and disseminated.

Recommendation 18: Develop a policy to ensure that if one of its weapons is stolen in the
future that the weapon will remain listed in the NCIC until it is recovered.

Response (Concur): The USMS will develop a policy to ensure that stolen weapons will remain
listed in NCIC until recovered. A copy of revised Policy Directive 2.3 will be provided to OIG
once it has cleared the policy review process and been finalized, signed, and disseminated.
                                                              APPENDIX V

             OFFICE OF THE INSPECTOR GENERAL
            ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the USMS. The USMS’s
response is incorporated in Appendix IV of this final report. The USMS also
included several attachments in its response that we considered in our
analysis but did not include in Appendix IV. The following provides the OIG
analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

  1.   Resolved. The USMS concurred with our recommendation to
       develop a solution to reduce the USMS SCDC’s reliance on cellblock
       overtime for Saturdays. The USMS stated in its response that it will
       develop a long-term solution that reduces the reliance on Saturday
       overtime at the SCDC.

       This recommendation can be closed when we receive:
       (1) documentation detailing the USMS SCDC’s solution to reduce
       reliance on cellblock overtime for Saturdays, and (2) evidence that
       such solution, when implemented, results in reduced Saturday
       overtime hours.

  2.   Resolved. The USMS concurred with our recommendation to
       continue to assess cellblock operations under the January 2013
       staffing plan to establish the ideal number of staff needed in the
       USMS SCDC cellblock, and if necessary, update the district staffing
       plan to meet that number. The USMS stated in its response that
       since its implementation, the new staffing plan has been under
       assessment by district management, and based on that assessment,
       district management has determined that the January 2013 staffing
       model provides a safe and secure environment and properly
       addresses the amount of staff needed in the cellblock.
     This recommendation can be closed when we receive evidence of
     district management’s assessment of the January 2013 staffing plan
     following its implementation, including management’s basis for
     determining the ideal number of staff needed in the USMS SCDC
     cellblock.

3.   Resolved. The USMS concurred with our recommendation to
     remedy $163,043 in unsupported questioned costs by seeking, as
     appropriate, recovery of funds it determines were improperly
     distributed and updating its WebTA policies and procedures to require
     that district employees submit overtime requests before working
     overtime shifts. The USMS stated in its response that the USMS
     Human Resources Division will update time and attendance policy
     and procedures to require that overtime requests are submitted prior
     to working overtime shifts. The policy update will be drafted in the
     fourth quarter of FY 2013 and finalization and dissemination are
     expected by the second quarter of FY 2014. Moreover, the USMS
     stated that if funds have been distributed improperly, it will seek to
     recover such payments.

     This recommendation can be closed when we receive documentation
     showing the completion and dissemination of updated WebTA policies
     and procedures that require that district employees submit overtime
     requests before working overtime shifts, as well as evidence of the
     collection of any funds the USMS determined to have been
     distributed improperly.

4.   Resolved. The USMS concurred with our recommendation to require
     district managers to track unscheduled duty time worked by Criminal
     Investigators in a manner that: (1) provides them with regular
     snapshots of unscheduled duty hours worked by each Criminal
     Investigator, and (2) identifies Criminal Investigators who do not
     appear to be working a substantial majority of unscheduled duty
     hours. The USMS stated in its response that USMS SCDC
     management provided guidance to Criminal Investigators on the use
     and documentation of LEAP hours and that management has initiated
     a process that will track LEAP hours on a regular basis. In addition,
     the Financial Services Division and the Human Resources Division are
     developing specific reports that will assist the district in tracking
     unscheduled duty hours worked.
     This recommendation can be closed when we receive evidence of the
     process initiated by district management to track LEAP hours on a
     regular basis and the reports developed by the Financial Services
     Division and Human Resources Division that will assist district
     management to track the unscheduled duty hours worked by each
     Criminal Investigator and identify Criminal Investigators who do not
     appear to be working a substantial majority of unscheduled duty
     hours.

5.   Resolved. The USMS concurred with our recommendation to require
     that the USMS SCDC implement corrective action to increase
     unscheduled duty hours for Criminal Investigators who are not
     working a substantial majority of the required average of
     unscheduled duty hours. The USMS stated in its response that the
     district will develop and implement standard operating procedures
     that will stipulate that Criminal Investigators identified as not
     working a substantial majority of unscheduled duty hours will be
     notified by their immediate supervisor that they are not meeting the
     required average. The supervisor will schedule a meeting with the
     employee to determine whether a recording issue exists or whether
     the employee is not working LEAP hours or is not available to work
     LEAP hours. The employee will be counseled regarding the use of
     LEAP and USMS LEAP policy. Under the standard operating
     procedures, the Criminal Investigator will be notified in writing that
     continual failure to meet the required average of unscheduled LEAP
     hours may result in decertification.

     This recommendation can be closed when we receive documentation
     of the completion and implementation of district standard operating
     procedures detailing the monitoring of unscheduled duty hours
     worked by Criminal Investigators and the corrective action to be
     taken to increase unscheduled duty hours for Criminal Investigators
     who are not working a substantial majority of the required average of
     unscheduled duty hours.

6.   Resolved. The USMS concurred with our recommendation to
     improve the tracking and accountability of fleet card use by updating
     its policies and procedures and developing a mechanism to mandate
     that district employees who are assigned vehicles sign fleet cards in
     and out using the dispatch log. The USMS stated in its response that
     it will document the formal standard operating procedures for the
     signing in and out of fleet credit cards.
     This recommendation can be closed when we receive documentation
     of the completion and implementation of district standard operating
     procedures for the signing in and out of fleet credit cards for all
     government vehicles. Such standard operating procedures should
     mandate that district employees assigned vehicles sign fleet cards in
     and out using the dispatch log.

7.   Resolved. The USMS concurred with our recommendation to
     remedy $51,648 in unsupported questioned costs by implementing a
     policy that prohibits district employees who do not submit receipts or
     signed transaction verifications, or otherwise prepare incomplete
     vehicle logs, from using USMS vehicles, and by recovering improperly
     distributed funds as appropriate. The USMS stated in its response
     that district management is currently drafting standard operating
     procedures that will provide detailed guidance regarding government
     vehicles and fleet cards. In the interim, district management has
     notified all operational personnel who are assigned vehicles that if
     they fail to comply with existing USMS policy requiring the
     submission of receipts or signed transaction verifications, or if they
     otherwise prepare incomplete vehicle logs, their assigned vehicle
     may be placed back in the motor pool for reassignment.

     This recommendation can be closed when we receive documentation
     showing the completion and implementation of district standard
     operating procedures for the use and monitoring of government
     vehicles and fleet cards, as well as evidence of the collection of any
     funds the USMS determined to have been distributed improperly.
     Such standard operating procedures should prohibit district
     employees who do not submit receipts or signed transaction
     verifications, or otherwise prepare complete vehicles logs, from using
     USMS vehicles.
8.   Resolved. The USMS concurred with our recommendation to
     determine an appropriate span of control ratio for the supervisory
     fleet card review process and develop a formal district-level fleet card
     review methodology for supervisors reviewing fleet card transactions
     whereby: (1) supervisors review fleet card statements and receipts
     for premium and mid-grade fuel purchases, and (2) district
     employees reimburse the USMS the cost of unnecessary premium
     and mid-grade fuel. The USMS stated in its response that district
     management is drafting standard operating procedures that will
     provide detailed guidance regarding government vehicles and fleet
     cards. In the interim, district management has notified all
     employees via e-mail that only standard and regular fuel is allowed
     for use in vehicles and that individual employees may be held
     responsible for any charges over and above the regular fuel charges
     if the policy is not followed. Additionally, district management will
     coordinate with the fleet card Agency Organization Program
     Coordinator to provide training on using the JP Morgan fleet card
     database for monitoring activities of fleet card transactions.

     This recommendation can be closed when we receive:
     (1) documentation showing the completion and implementation of
     district standard operating procedures for the use and monitoring of
     government vehicles, fleet cards, and monthly charges; and
     (2) documentation of the training provided to all SCDC section
     supervisors on the use of the JP Morgan fleet card database to
     monitor fleet card transactions, including training materials provided
     to participants and a list of attendees.

9.   Resolved. The USMS concurred with our recommendation to
     establish policies and procedures ensuring that fleet cards associated
     with vehicles that have been disposed are destroyed or otherwise
     deactivated. The USMS stated in its response that district
     management will coordinate with the fleet card Agency
     Organizational Program Coordinator to provide training on using the
     JP Morgan fleet card database to monitor active fleet cards. The
     district will also ensure that the Office of Fleet Management is
     notified when a vehicle has been sold or destroyed. Further,
     effective March 2013, the Office of Fleet Management provides a
     monthly list to the fleet card Agency Organizational Program
     Coordinator outlining vehicles that were sold or destroyed during that
     month in order to terminate those vehicle fleet cards, as needed.
     Additionally, fleet cards inactive for one year will be suspended
     automatically. A draft policy revision addressing this issue is
     currently under review.
    This recommendation can be closed when we receive:
    (1) documentation of the training provided to all SCDC section
    supervisors on the use of the JP Morgan fleet card database to
    monitor active fleet cards, including training materials provided to
    participants and a list of attendees; and (2) documentation showing
    the update to USMS policy directives that includes the proposed
    language regarding the suspension and cancelation of inactive cards,
    or similar language.

10. Resolved. The USMS concurred with our recommendation to ensure
    that purchase card approving officials not approve requisitions
    lacking required information, such as justification for the purchase.
    The USMS stated in its response that district management will
    coordinate with the purchase card Agency Organizational Program
    Coordinator to provide training on approving official responsibilities.
    To ensure completeness and appropriate justifications, district
    management and the Agency Organizational Program Coordinator
    will conduct reviews on requisitions and supporting documentation
    for supplies and services.

    This recommendation can be closed when we receive documentation
    of the training provided to all purchase card approving officials on
    approving official responsibilities, including training materials
    provided to participants and a list of attendees, as well as evidence
    showing the effectiveness of the reviews conducted by district
    management and the Agency Organizational Program Coordinator to
    ensure complete and appropriate justifications.

11. Resolved. The USMS concurred with our recommendation to
    strengthen the segregation of duties with regard to purchase cards
    by precluding cardholders from certifying funds availability or
    approving purchase requests related to their own purchases. The
    USMS stated in its response that with the implementation of the
    Unified Financial Management System in October 2012, purchases
    above the micro-purchase threshold are now entered into the
    financial system and the segregation of duties is managed within the
    system.
    This recommendation can be closed when we receive: (1) evidence
    detailing the segregation of duties within the Unified Financial
    Management System for USMS SCDC personnel who make purchases
    above the micro-purchase threshold, and (2) evidence that the USMS
    has strengthened the segregation of duties with regards to purchases
    below the micro-purchase threshold.

12. Resolved. The USMS concurred with our recommendation to
    remedy $60,562 in unsupported questioned costs by implementing
    policies that ensure the district maintains the required support for
    purchase card transactions, and by recovering improperly distributed
    funds as appropriate. The USMS stated in its response that in
    addition to providing training on approving official responsibilities,
    district management will prepare appropriate paperwork and forward
    it for review and necessary action as outlined by USMS Policy
    Directive 6.1.G, Ratification of Unauthorized Commitments, to
    include review by the Ratification Review Board as necessary.

    This recommendation can be closed when we receive:
    (1) documentation of the training provided to all purchase card
    approving officials on approving official responsibilities, including
    training materials provided to participants and a list of attendees;
    (2) copies of the paperwork completed and forwarded to the
    Ratification Review Board and the Board’s official ruling; and
    (3) evidence of the collection of any funds the USMS determined to
    have been distributed improperly.

13. Resolved. The USMS concurred with our recommendation to ensure
    that district managers receive and review the monthly reconciliation
    of purchase card transactions and confirm that each transaction is
    proper and supported by required documents. The USMS stated in
    its response that the Office of Procurement will conduct biannual
    reviews of district and division purchase card transactions and that
    district management will implement standard operating procedures
    to ensure the monthly review and approval of the statements.

    This recommendation can be closed when we receive documentation
    of the biannual review conducted by the Office of Procurement and
    evidence showing the completion and implementation of standard
    operating procedures for the monthly review of purchase card
    reconciliations conducted by district managers.
14. Resolved. The USMS concurred with our recommendation to ensure
    that the district promptly and accurately records accountable
    property items in ARGIS. The USMS stated in its response that the
    Office of Property Management has implemented a district dashboard
    tool that accurately records accountable property items entered in
    ARGIS within 15 calendar days. When districts do not comply with
    this requirement, the dashboard identifies the district as
    non-compliant and the Chief Deputy U.S. Marshal for the district is
    notified of the non-compliance. A Property Management Specialist at
    USMS Headquarters reviews the tool on a monthly basis to monitor
    district offices’ compliance with the 15-day requirement.

    This recommendation can be closed when we receive: (1) additional
    documentation showing that accountable property acquired by the
    USMS SCDC, following the implementation of the dashboard tool, has
    been accurately recorded in ARGIS within 15 calendar days; and
    (2) standard operating procedures outlining the process by which the
    Chief Deputy U.S. Marshal for the USMS SCDC is contacted in
    instances of non-compliance and the actions taken by the Property
    Management Specialist at USMS Headquarters in such instances.

15. Resolved. The USMS concurred with our recommendation to revise
    its inventory sheet to provide a field for personnel to record the
    location or individual holding the property. The USMS stated in its
    response that the current property management system has a field
    that allows the district Property Officer to record the location of
    accountable property assigned to each employee. The USMS stated
    in its response that this can be accomplished during the annual
    review of hand receipts or while performing the biennial inventory,
    which will ensure that the location field is populated with the most
    current information.

    This recommendation can be closed when we receive evidence that
    the “location” field has been populated in the property management
    system for USMS SCDC accountable property and that the inventory
    sheet used by the district inventory team contains this information.

16. Resolved. The USMS concurred with our recommendation to ensure
    that districts that receive property from another district submit on
    time all required property forms. The USMS stated in its response
    that the Self-Assessment Guide will be revised and disseminated to
    all districts in the fourth quarter of FY 2013 to ensure that districts
    comply with USMS policies for property acquisition and disposal.
    This recommendation can be closed when we receive evidence that
    the Self-Assessment Guide was revised, disseminated to all districts,
    and is effective in ensuring that districts that receive property from
    another district submit on time all required property forms.

17. Resolved. The USMS concurred with our recommendation to review
    its directives to clarify who within the USMS is responsible for
    reporting lost or stolen weapons to the NCIC. The USMS stated in its
    response that the USMS Training Division has consulted with all
    affected divisions in order to correct current policies and introduce
    revisions which clarify responsibilities for reporting, notification, and
    annual NCIC entry confirmation requirements.

    This recommendation can be closed when we receive documentation
    of USMS policy directives clarifying who within the USMS is
    responsible for reporting lost or stolen weapons to the NCIC and that
    such policy has been communicated to the responsible individuals.

18. Resolved. The USMS concurred with our recommendation to
    develop a policy to ensure that if one of its weapons is stolen in the
    future that the weapon will remain listed in the NCIC until it is
    recovered. The USMS stated in its response that it will develop a
    policy to ensure that stolen weapons will remain listed in NCIC until
    recovered.

    This recommendation can be closed when we receive documentation
    of USMS policy directives clarifying that USMS stolen weapons must
    remain in NCIC until recovered.
